<html>
<title> - THE DEVASTATING HEALTH IMPACTS OF CLIMATE CHANGE</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                         THE DEVASTATING HEALTH
                        IMPACTS OF CLIMATE CHANGE

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                          OVERSIGHT AND REFORM
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             AUGUST 5, 2020

                               __________

                           Serial No. 116-111

                               __________

      Printed for the use of the Committee on Oversight and Reform
      
      
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]      


                       Available on: govinfo.gov,
                         oversight.house.gov or
                             docs.house.gov
                             
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
41-911 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------                             
                             
                             
                             
                   COMMITTEE ON OVERSIGHT AND REFORM

                CAROLYN B. MALONEY, New York, Chairwoman

Eleanor Holmes Norton, District of   James Comer, Kentucky, Ranking 
    Columbia                             Minority Member
Wm. Lacy Clay, Missouri              Jim Jordan, Ohio
Stephen F. Lynch, Massachusetts      Paul A. Gosar, Arizona
Jim Cooper, Tennessee                Virginia Foxx, North Carolina
Gerald E. Connolly, Virginia         Thomas Massie, Kentucky
Raja Krishnamoorthi, Illinois        Jody B. Hice, Georgia
Jamie Raskin, Maryland               Glenn Grothman, Wisconsin
Harley Rouda, California             Gary Palmer, Alabama
Ro Khanna, California                Michael Cloud, Texas
Kweisi Mfume, Maryland               Bob Gibbs, Ohio
Debbie Wasserman Schultz, Florida    Clay Higgins, Louisiana
John P. Sarbanes, Maryland           Ralph Norman, South Carolina
Peter Welch, Vermont                 Chip Roy, Texas
Jackie Speier, California            Carol D. Miller, West Virginia
Robin L. Kelly, Illinois             Mark E. Green, Tennessee
Mark DeSaulnier, California          Kelly Armstrong, North Dakota
Brenda L. Lawrence, Michigan         W. Gregory Steube, Florida
Stacey E. Plaskett, Virgin Islands   Fred Keller, Pennsylvania
Jimmy Gomez, California
Alexandria Ocasio-Cortez, New York
Ayanna Pressley, Massachusetts
Rashida Tlaib, Michigan
Katie Porter, California

                     David Rapallo, Staff Director
                    Britteny Jenkins, Chief Counsel
                          Elisa LaNier, Clerk

                      Contact Number: 202-225-5051

               Christopher Hixon, Minority Staff Director
                                 ------                                
                        
                        
                        C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on August 5, 2020...................................     1

                               Witnesses

Dr. Drew Shindell, Nicholas Distinguished Professor of Earth 
  Science, Duke University
    Oral Statement...............................................     6
Dr. Michael Greenstone, Milton Friedman Distinguished Service 
  Professor in Economics, the College, and the Harris School, 
  Department of Economics, University of Chicago
    Oral Statement...............................................     8
Dr. Neeta Thakur, Medical Director, Zuckerberg San Francisco 
  General Hospital Chest Clinic, University of California, San 
  Francisco
    Oral Statement...............................................     9
Dr. Renee N. Salas, Assistant Professor of Emergency Medicine, 
  Harvard Medical School
    Oral Statement...............................................    11

* The opening statements and written statements for witnesses are 
  available at:  docs.house.gov.

                           INDEX OF DOCUMENTS

                              ----------                              

The documents listed below are available at: docs.house.gov.

  * State of the Planet, report; submitted by Rep. Palmer.

  * Paper from National Bureau of Economic Research; submitted by 
  Rep. Palmer.


 
                         THE DEVASTATING HEALTH
                       IMPACTS OF CLIMATE CHANGE

                              ----------                              


                       Wednesday, August 5, 2020

                  House of Representatives,
                 Committee on Oversight and Reform,
                                                   Washington, D.C.

    The committee met, pursuant to notice, at 11:19 a.m., via 
WebEx, Hon. Carolyn B. Maloney [chairwoman of the committee] 
presiding.
    Present: Representatives Maloney, Norton, Lynch, Connolly, 
Krishnamoorthi, Raskin, Rouda, Khanna, Mfume, Wasserman 
Schultz, Sarbanes, Kelly, DeSaulnier, Plaskett, Pressley, 
Porter, Comer, Gosar, Massie, Hice, Grothman, Palmer, Gibbs, 
Higgins, Miller, Green, and Keller.
    Chairwoman Maloney. The committee will come to order.
    Without objection, the chair is authorized to declare a 
recess of the committee at any time.
    I now recognize myself for an opening statement.
    Good morning. Today's hearing is about the climate crisis 
that our Nation faces. It is a crisis that is already harming 
the health of Americans. It is a crisis that our children will 
inherit. And if our government does not act now, it will result 
in tragedy on a vast scale.
    But the good news is that there is still time to act. And 
the experts here today will explain how our Nation, our 
economy, and the health of the American people all stand to 
benefit from decisive action limiting climate change.
    I've called this hearing today, even though there are many 
important things we are all working on this week, because 
handling one crisis does not negate our responsibility to face 
another one. We owe it to our constituents, to each over, and 
to future generations to take action on climate change now.
    I'm eager for this committee to hear from our panelists 
today. We will be learning about groundbreaking new research, 
some shared with the world at this hearing for the very first 
time. This research highlights the very real impacts of climate 
change and air pollution on American lives over the next 
century.
    We will have the opportunity to learn from all of this. And 
I just want you to know that the witnesses are--that are before 
us today are ringing the alarm bell, and the House Oversight 
Committee is hearing.
    Unfortunately, as with the coronavirus pandemic, the 
President's actions have actually made the problem of climate 
change worse. President Trump has directed his administration 
to dismantle efforts to save our planet. He has rolled back 
clean air and clean water protections. He withdrew the United 
States from the Paris Agreement, a global commitment to keep 
warming under 2 degrees Celsius.
    When announcing the withdrawal, Trump stated, and I quote, 
``As President, I can put no other consideration before the 
well-being of American citizens,'' end quote. Yet the 
President's actions put the health of Americans at further 
risk. Lives are lost due to climate change. And because of 
increased disease, these actions also increase the cost of 
healthcare.
    By contrast, Democrats in Congress have relentlessly pushed 
for reforms. For example, last year, in February 2019, I, along 
with numerous colleagues here on Oversight Committee, 
cosponsored H.R. 109, legislation recognizing the Federal 
Government's duty to create a Green New Deal to end our 
country's reliance on fossil fuels.
    Our committee is also actively working on legislation to 
reduce the Federal Government's environmental footprint. This 
work includes a bill to require the Postal Service to 
transition to a 100-percent emissions-free vehicle fleet by 
2040. This will ensure that the Postal Service has the tools 
necessary for its mission while making our air cleaner.
    I am deeply committed to making this a reality and to 
pursuing additional legislation within the jurisdiction of our 
committee to combat climate change.
    Congress has a duty to lead in this crisis. I am honored to 
be chairing this hearing today, and I am honored to be 
listening to this distinguished panels of scientists, 
researchers, and doctors. And I am glad my Republican 
colleagues are participating, as this is a challenge we face 
together.
    Thank you all for being here.
    I now recognize the distinguished ranking member, Mr. 
Comer, for an opening statement.
    Mr. Comer. Thank you, Chairwoman Maloney.
    And I thank the witnesses for their willingness to appear 
before the committee to discuss the health impacts of climate 
change.
    I would like to begin by discussing the progress that the 
United States has made on climate change. We are leading the 
world in reducing emissions, having reduced more than the next 
12 emission-reducing countries combined. Because these 
reductions have come via innovation and market forces, energy 
costs have decreased.
    This summer, EPA released its annual air quality report. 
Under the leadership of President Trump, from 2017 through 
2019, criteria air pollution and emissions have dropped seven 
percent. Due to these falling emissions, the U.S. saw a marked 
improvement in air quality. The number of days listed as 
unhealthy for sensitive groups in the Air Quality Index dropped 
by 34 percent from 2017 to 2019.
    The United States also saw the largest decrease of any 
country in energy-related CO2 emissions in 2019. Energy-related 
CO2 emissions fell 2.9 percent in 2019. U.S. emissions are now 
down almost 1 gigaton from their peak in the year 2000. This is 
the largest absolute decline by any country over that period.
    Not everything is declining, unfortunately. The mental 
health impacts regarding the fear of climate change are growing 
at a staggering rate. A survey of 30,000 people worldwide found 
that nearly all of the people surveyed believed climate change 
would make humanity extinct.
    Children have been impacted by the fear of climate change 
as well. The American Psychological Association stated that 
there were--they were aware of reports that children are 
increasingly suffering from eco anxiety.
    I hope that our committee can move past doomsday scenarios 
and headlines and focus on the energy policy steps we should be 
taking and what their costs and impacts are.
    According to a study performed by The Heritage Foundation, 
one part of the Green New Deal would cost an average family 
$165,000 and wipe out 5.2 million jobs with negligible climate 
benefit.
    I fear that a premature move away from fossil fuels, 
particularly for poorer areas, means that they will continue to 
have little access to the type of cheap, reliable energy that 
enables economic growth, that allows for the provision of clean 
water and sanitation, widespread vaccination, and preventative 
child health services.
    As I have said before, coal mining is a way of life in many 
parts of America, including my district. Kentucky coal remains 
an important component of the Commonwealth's economy and 
America's powerful energy portfolio.
    Kentucky was the fifth-highest coal producer in the U.S. in 
2018, mining 39.7 million tons of coal. In that same year, coal 
mines directly employed more than 6,400 Kentuckians, and mining 
indirectly contributed billions of dollars to Kentucky's 
economy. Both the first-and second-largest coal-producing 
counties, Union and Hopkins, are in my congressional district.
    The United States is blessed with abundant clean-energy 
natural resources. We must use those resources to advance 
American interests and continue to reduce emissions. I look 
forward to working with the majority to drive energy and 
environmental innovation in ways that are beneficial to 
everyone.
    Thank you, Madam Chairman. And thank you again to today's 
witnesses.
    I yield back.
    Chairwoman Maloney. I now recognize Mr. Rouda for an 
opening statement.
    Mr. Rouda. Chairwoman Maloney, did you just recognize me?
    Chairwoman Maloney. Yes, I did. Yes, I did.
    Mr. Rouda. Thank you. Thank you, Chairwoman Maloney, for 
the opportunity to give an opening statement, and thank you for 
holding this important hearing.
    As chair of the Subcommittee on Environment, climate change 
has been front and center among my priorities. Over the course 
of the 116th Congress, our subcommittee has held a series of 
hearings focused on climate change.
    We've explored the early scientific consensus regarding 
climate action, a reality confirmed in the 1970's and 1980's by 
in-house scientists at major fossil fuel companies such as 
Exxon and Shell and later denied by those same companies once 
they started getting concerned that climate action would hurt 
their bottom line.
    In subsequent hearings and briefings, the subcommittee laid 
out the devastating consequences of climate change on public 
health, how climate change is causing more frequent and severe 
natural disasters, and how climate change has already impacted 
our economic well-being.
    What we have learned from this substantial work is that 
climate change can no longer be thought of as something that 
may or may not impact us someday. We are already experiencing 
the negative impacts as a result of decades of inaction. And 
people across our country and around the world will continue to 
suffer for decades to come if we continue down this path of 
inaction.
    Now, let's be clear: Those focused on inaccurately 
downplaying real climate risk have blood on their hands. These 
efforts are deeply problematic and counterproductive. We cannot 
simply cherry-pick information to fit whatever narrative suits 
our desires or industry bottom lines.
    In my opinion, engaging in ongoing climate denial efforts, 
in clear contradiction of decades of scientific evidence, is on 
par with the current administration's efforts to shrink 
responsibility for over 155,000 Americans who have lost their 
lives as a result of widespread misinformation and a distrust 
and disregard for science by leaders of this country.
    As detailed in the Trump administration's own Fourth 
National Climate Assessment, the economic consequences of 
climate change are serious and far-reaching. According to this 
assessment, climate change could slash up to one-tenth of gross 
domestic product by the year 2100. To put that in perspective, 
that's more than double the losses we experienced in the 2008 
Great Recession.
    Instead of seizing upon these findings and other dire 
public health warnings expressed in this assessment in order to 
ensure a livable world, instead, the Trump administration has 
worked tirelessly to undermine the efforts of previous 
administrations. In fact, as of July 15, 2020, the Trump 
administration has officially reversed, revoked, or otherwise 
rolled back 68 major environmental policies, rules, and 
regulations, with 38 additional rollbacks still in progress.
    The Trump administration's anti-climate actions create 
serious negative economic consequences for the short-term and 
long-term future of every American. We must do more to protect 
the health and safety of all Americans, especially amid the 
ongoing coronavirus pandemic.
    In fact, a Harvard University study published in April 2020 
found that an increase of just one microgram per cubic meter of 
pollution is associated with an eight-percent increase in the 
death rate due to the coronavirus.
    The study also found that COVID-19 mortality rates were 
higher in areas that suffered from long-term pollution, 
including low-income communities and communities of color. The 
same causes of climate change are exacerbating the effects on 
our public health and the economic crisis caused by the 
coronavirus pandemic.
    The testimony from our experts who have joined us today, 
including the testimony of Dr. Drew Shindell and Dr. Michael 
Greenstone, who will testify to new and alarming figures 
regarding the cost of inaction on climate change, further 
underscores the urgent need for congressional action to pass 
major climate legislation.
    It could not be clearer: Climate change is an existential 
problem. It literally threatens all aspects of our collective 
existence as a human race--our health, our livelihoods, and our 
ability to survive and rebuild from the tragedies inflicted by 
nature.
    We hear a lot about the generational divides in American 
politics today, but there's one thing that has always united 
us: Each generation wants their children to live better, 
happier, healthier, and more prosperous lives than they did. If 
that does not happen, it feels like a reversal of the natural 
order.
    It makes me sick to think that my children and my 
children's children will soon be standing at the dawn of a new 
century, looking back at all of us, wondering why didn't we 
take the threat of climate change seriously, why we knew and 
did nothing. Did we not think they were worth it?
    For these reasons, giving up and turning away from a 
problem is simply not an option. Collective action in the face 
of a rapidly changing world is tough, yes, but, in the words of 
President John F. Kennedy, speaking of our Nation's efforts to 
reach the Moon, we choose to pursue great actions, quote, ``not 
because they are easy, but because they are hard; because that 
goal will serve to organize and measure the best of our 
energies and skills; because that challenge is one that we are 
willing to accept, one we are unwilling to postpone, and one 
which we intend to win.''
    Last October, former California Governor Jerry Brown 
testified before the subcommittee on the current 
administration's rollback of the Obama-era clean cars rule, and 
he urged all of us, quote, ``Let's get it done. Pass the laws, 
block the stupidity, and get back on the side of science and 
the environment.''
    We do not have time to waste. The existential challenge and 
unprecedented moment requires extraordinary action, and it's 
both the political and moral will to do the right thing. Let us 
be on the right side of history, not just for ourselves, but 
for our children, our grandchildren, and all future 
generations.
    Thank you, Chairwoman Maloney, for this opportunity, and I 
yield back.
    Chairwoman Maloney. Thank you so much.
    Now, I would like to introduce our witnesses.
    Our first witness today is world-leading climate scientist 
Dr. Drew Shindell, the distinguished professor of Earth 
sciences at Duke University. Dr. Shindell was previously at the 
NASA Goddard Institute for Space Studies and served as the 
coordinating lead author on two key intergovernmental panels on 
climate change, one in 2013 and one in 2018.
    Then, we will hear from Dr. Michael Greenstone, Milton 
Friedman distinguished service professor in economics at the 
University of Chicago. Dr. Greenstone is also the director of 
the Becker Friedman Institute and the Interdisciplinary Energy 
Policy Institute, also at the University of Chicago. He 
previously served under President Obama as the Chief Economist 
for the Council of Economic Advisers.
    Next, we will hear from Dr. Neeta Thakur. Dr. Thakur is an 
adult pulmonologist and critical care physician at University 
of California, San Francisco. She is the medical director at 
the San Francisco General Hospital Chest Clinic at the 
University of California, San Francisco. And she is the chair 
of the Health Equality and Diversity Committee at the American 
Thoracic Society.
    Then, we will hear from Dr. Renee Salas, a practicing 
emergency medicine physician in the Department of Emergency 
Medicine at Massachusetts General Hospital, an assistant 
professor of emergency medicine at Harvard Medical School, and 
a Yerby fellow at the Center for Climate, Health, and the 
Global Environment at the Harvard T.H. Chan School of Public 
Health.
    Finally, we will hear from Michael Shellenberger, who is 
the president and founder of Environmental Progress.
    The witnesses will be unmuted so that we may swear them in.
    Please raise your right hands.
    Do you swear or affirm that the testimony you are about to 
give is the truth, the whole truth, and nothing but the truth, 
so help you God?
    Let the record show that the witnesses answered in the 
affirmative.
    Thank you.
    Without objection, your written statements will be made 
part of the record.
    With that, Dr. Shindell, you are now recognized for your 
testimony. Dr. Shindell?

   STATEMENT OF DREW SHINDELL, PH.D., NICHOLAS DISTINGUISHED 
          PROFESSOR OF EARTH SCIENCE, DUKE UNIVERSITY

    Mr. Shindell. Chairwoman Maloney, Ranking Member Comer, and 
members of the committee, good morning, and thank you for 
inviting me to testify today.
    Our Nation faces multiple challenges, including the ongoing 
climate crisis, poor health for many Americans along with 
enormous medical spending, unprecedented job losses, and 
systemic inequality.
    Though seeming disparate issues, these problems are all 
connected. In particular, the burning of fossil fuels that is 
the primary driver of climate change is also responsible for 
the majority of deadly air pollution in the U.S., while 
transitioning to alternative energy sources would not only 
improve the environment but would create jobs and reduce the 
disproportionate suffering from climate change and air 
pollution that falls upon the most vulnerable, exacerbating 
inequalities.
    In this testimony, I present the results of new research by 
my group at Duke University and NASA colleagues on the health 
and economic benefits to Americans if the world meets the 
objectives of the Paris Climate Agreement and keeps global 
warming below 2 degrees C.
    This new work is the first to incorporate recent advances 
in understanding of public health, which reveal much larger 
benefits than in prior studies, in a consistent evaluation of 
the impacts of both the climate and air quality changes 
resulting from aggressive policies to mitigate climate change.
    I can provide the committee with results for all the 
contiguous 48 states and major metropolitan areas throughout 
the country. Here, I focus on national totals.
    We find that, over the next 50 years, keeping to the 2-
degree pathway would prevent roughly 4-1/2 million premature 
deaths and about 3-1/2 million hospitalizations and emergency 
room visits. These large impacts reflect our updated 
understanding of the severe toxicity of air pollution and the 
dangers of heat exposure. Although it does not appear on death 
certificates, pollution is indirectly responsible for a large 
fraction of heart diseases and respiratory diseases.
    The economic value of these avoided deaths is more than $37 
trillion. The avoided healthcare spending due to reduced 
hospitalizations and emergency room visits exceeds $37 billion.
    Older people, children, and the poor are particularly 
vulnerable to both air pollution and heat exposure, so the 
adverse impacts fall disproportionately on the most vulnerable 
and on minority populations.
    Benefits of action extend beyond health. Ask a delivery 
truck driver how easy it is to get their job done when it's 108 
degrees Farenheit. Find a construction worker hammering down a 
roof in the blazing sun in Texas and ask them how well they 
work when it's 110 and humid. Ask a worker on a farm or on a 
giant factory floor too large to be air-conditioned how many 
breaks they'll need when temperatures rise even further in the 
summertime. People cannot work if they are directly affected by 
heat or dirty air but also when they are caregivers for 
children or elderly made sick by their environment.
    Our analysis finds that a 2-degree pathway leads to more 
than 300 million additional workdays that would otherwise have 
been lost due to air pollution and heat for American 
businesses, valued at more than $70 billion.
    The environmental costs of climate change and air pollution 
are also passed on to all businesses, who pay in their higher 
health and damage insurance costs. On average, we find more 
than $700 billion per year in benefits for the U.S. from 
improved health and labor alone--far more than the cost of the 
energy transition.
    Furthermore, renewable electricity sources, such as solar 
and wind, and energy-efficiency programs create far more jobs 
per unit of energy produced or saved than fossil fuels, making 
the transition better for workers too. Hence, it's not a 
question of choosing the environment or the economy; it's 
choosing a healthy environment and a strong economy or a 
polluted environment and a weaker one.
    Because many health benefits come from clean air, our 
research also shows that U.S. action alone would bring us more 
than two-thirds of the health benefits of worldwide action over 
the next 15 years. Hence, while it is unquestionably true that 
tackling climate change requires the nations of the world to 
work together, it is also true that the bulk of the near-term 
benefits we stand to receive from addressing climate change 
will come from our own policies.
    As we've seen with the coronavirus lockdown, air pollution 
responds immediately to emissions reductions. Therefore, we 
find that roughly 1.4 million lives could be saved from 
improved air quality during just the next 20 years.
    Shifting to a two-degree pathway could reduce the toll of 
air pollution, which leads to nearly 250,000 premature deaths 
per year in the U.S., by 40 percent in just a decade. Our work 
shows that climate action now means benefits now.
    Thank you.
    Chairwoman Maloney. Dr. Greenstone, you are now recognized 
for your testimony. Dr. Greenstone?

    STATEMENT OF MICHAEL GREENSTONE, PH.D., MILTON FRIEDMAN 
DISTINGUISHED SERVICE PROFESSOR IN ECONOMICS, THE COLLEGE, AND 
   THE HARRIS SCHOOL, DEPARTMENT OF ECONOMICS, UNIVERSITY OF 
                            CHICAGO

    Mr. Greenstone. Thank you. Thank you, Chairwoman Maloney, 
Ranking Member Comer, and members of the committee, for----
    [Audio interruption.]
    Mr. Greenstone. Should I start?
    Chairwoman Maloney. Would people mute their contact? 
Because there's talking in the background.
    Dr. Greenstone let's try now.
    Mr. Greenstone. OK, great.
    Thank you, Chairwoman Maloney, Ranking Member Comer, and 
members of the committee, for inviting me to speak today. I 
appreciate the opportunity to speak with you about the 
temperature impact from climate change on public health and our 
economy.
    The temperature impact on mortality is likely to be one of 
the dominant costs of climate change. And because today's 
emissions will stay in the atmosphere for hundreds of years, 
knowing the damages it will cause will be essential to taking 
the action we need to prepare for these risks.
    So, what impact will climate-induced temperature changes 
have on public health, and how much will it cost? This is a 
topic of a new paper that I released with some colleagues on 
Monday. Since the paper is 145 pages long, I thought that I 
would use my time to summarize its findings.
    I want to emphasize its headline finding up front, though. 
The results indicate that the mortality risks from climate-
induced temperature changes are at least an order of magnitude 
larger than we had previously understood. With this headline in 
mind, there are four main points that come out of my written 
testimony.
    No. 1, our research discovered that a high emissions 
trajectory increases global temperatures by about 4.8 degrees C 
relative to preindustrial temperatures by 2100. And this 
increase is projected to raise global mortality risk by about 
85 deaths per 100,000 people by 2100.
    No. 2, in the United States, the projected increase in 
mortality risk from higher temperatures will be about 10 deaths 
per 100,000. And that's about on par with the current fatality 
rate for modeling.
    Another key finding is that the risk in the United States 
differs from place to place. I've included a table in my 
written testimony with the data for each of your districts to 
give a sense of the risk your constituents are projected to 
face. Some examples might be instructive.
    In my home city of Chicago, which includes the districts of 
two Representatives on the committee, the mortality risk is 
projected to actually degrees by about 35 lives per 100,000 by 
2100. That's because my city typically sees a lot of very cold 
winter days, and those days tend to be deadly. Over time, 
however, we'll see fewer of those cold days, which decreases 
mortality risk during the winter, and that will outweigh the 
risk of more hot days, giving Chicago a net benefit.
    In contrast, other places will be harmed. The Washington, 
DC, area, which includes the districts of Representatives 
Raskin and Norton, is projected to experience a higher 
mortality risk under this scenario--around 33 deaths per 
100,000 by 2100. In Winston-Salem, which includes the district 
of Representative Foxx, it's 35 deaths per 100,000. Kenton 
County, Kentucky, which includes the district of Representative 
Massie, is projected to increase by about 28 deaths per 
100,000.
    In all of these cases, the increased mortality risk is 
higher than the current U.S. mortality rate for diabetes, for 
the flu, and pneumonia.
    No. 3, this is the projected future if we follow a high-
emissions trajectory. However, the level of emissions is not a 
law of physics; it is a reflection of policy choices. And here, 
the news is very encouraging. Bringing global emissions down to 
moderate levels, not even as low as the Paris Agreement's long-
term targets, would reduce the attendant mortality risk by 
about 84 percent compared to the high-emissions pathway that I 
just discussed.
    Under this moderate-emissions scenario, climate-induced 
temperature changes are projected to be responsible for 14 
additional deaths per 100,000 globally at the end of the 
century. That's down from 81. In the United States, that risk 
would decline from about 10 to 1 per 100,000, eliminating 
almost all of the mortality risk.
    No. 4, we estimate that the release of an additional metric 
ton of CO2 will cause about $37 worth of mortality damages. 
This finding is more than five times larger than the Trump 
administration's full social cost of carbon, reflecting their 
claim about damages across all sectors. It is also about 75 
percent of the Obama Administration's global cost of carbon 
that had relied on previous research.
    All of this makes clear that it is absolutely critical that 
the social cost of carbon is updated, following the National 
Academy of Sciences' 2017 recommendations, so that it is on the 
frontier of scientific and economic understanding and can serve 
as a more accurate guidepost for climate policy.
    In conclusion, the mortality risks from climate change are 
substantial. However--not just substantial--larger than we had 
previously understood. However, policy has the potential to 
deliver some of the most significant public health gains in 
history. That's within our grasp.
    Given the scale of the climate change in front of us, we 
would be well-served to be disciplined in seeking out the most 
efficient and least expensive reductions in greenhouse gases 
available.
    Thank you for allowing me to speak today. I look forward to 
your questions.
    Chairwoman Maloney. Thank you.
    Dr. Thakur, you are now recognized for your testimony.
    Dr. Thakur?
    Is she there?

 STATEMENT OF NEETA THAKUR, M.D., MEDICAL DIRECTOR, ZUCKERBERG 
  SAN FRANCISCO GENERAL HOSPITAL CHEST CLINIC, UNIVERSITY OF 
                   CALIFORNIA, SAN FRANCISCO

    Dr. Thakur. Hello? Are you guys able to hear me now?
    Chairwoman Maloney. Yes, we can.
    Dr. Thakur. OK. I'm not sure what happened. I apologize for 
that. Thank you for having me today.
    I'm a pulmonary and critical care physician at the 
University of California, San Francisco. I'm the medical 
director of the Chest Clinic at our county hospital. I am also 
a physician member on the Climate Change Coordination Committee 
for the San Francisco Department of Public Health and a 
scientist who studies the effects of air pollution on children 
and adults. Most importantly, I'm also a mom to two children, 
and I worry about how climate change will impact my children's 
health, especially my son, who is eight years old and has 
asthma and severe allergies.
    You've heard previous testimony at this hearing and at 
others about the science of climate change. To many, climate 
change feels like a concept or something that is happening that 
is invisible and not felt at the individual level.
    Today, I want to use my time to share with you my patients' 
stories--my patients who are the most vulnerable--the elderly, 
those with chronic medical conditions, and those from 
historically disadvantaged communities--and how climate change 
is impacting their health.
    Right now, today, we are experiencing extreme heat across 
the country. This is especially concerning as we're in the 
midst of the coronavirus pandemic, which is crippling our usual 
mechanisms--that is, the use of cooling centers, libraries, and 
malls--to combat the effect of extreme heat.
    This is not new, and it's only becoming more frequent. In 
September 2017, San Francisco set a new record-high temperature 
of 106 degrees. For many, these days were hot, uncomfortable, 
and inconvenient, but for my patients, their health was in 
jeopardy due to extreme heat.
    For one of my patients, a 68-year-old man with COPD, who is 
also homebound and cannot afford air conditioning, the record 
temperatures were causing him severe distress. To escape the 
heat, he needed to sit in a cool bath and keep a wet towel on 
his neck to stay cool and to keep his breathing comfortable and 
to keep him out of the hospital. My patient staying cool was 
not just a matter of comfort and convenience; it was literally 
a matter of life and death.
    Because of climate change, wildfires in California have 
turned from a seasonal phenomenon to a year-round threat. One 
of the most destructive fires on record, the 2019 Camp Fire in 
Butte County, caused high levels of air pollution across the 
San Francisco Bay area. The Air Quality Index hit the purple 
zone. This meant when stepping outside there was a visible haze 
hanging over the city.
    I had to make home calls to my patients to check in with 
their respiratory status and then had to make the calculated 
decision to tell them to not come to their appointments with 
me, knowing that just stepping outside and traveling the short 
distance to the doctor's office was hazardous to their health.
    In one phone call, my patient with severe asthma shared 
with me that she was scared to go outside and did not know how 
to protect herself, and despite following the recommendations 
to stay indoors, her coughing, shortness of breath, and 
wheezing were getting worse.
    My only option was to prescribe her prednisone, or a 
steroid, to control her symptoms, but this intervention is just 
a Band-Aid and comes with its own side effects. I could not 
provide her with the one thing she needed most, which was clean 
air. Unfortunately, climate-driven wildfires will continue to 
put clean air out of reach for many of my patients.
    Climate change also means more carbon dioxide, which 
promotes plant growth and pollen production. This is bad for 
the 30 percent of Americans with seasonal allergies and the 
eight percent with asthma.
    For one of my patients, who works outside in construction, 
his asthma became so severe due to the prolonged pollen season 
that he could no longer work. We were able to start him on a 
twice-a-month injection therapy for his asthma, and, after 
about a year, he improved so much that he was able to go back 
to work. Unfortunately, because he was hourly paid, he could no 
longer come in to his every-2-weeks appointment, and his asthma 
became severe again, and he is now once again unemployed.
    The frequency and severity of allergic illnesses, including 
hayfever, are expected to increase as a result of shorter 
winters and earlier and longer pollen seasons. For me, this has 
meant keeping my son at home from school because his asthma 
flares during the pollen season.
    This also means, at these times, I cannot go to work and 
care for my patients. I am fortunate that my job allows me to 
take time off without fear of losing daily income. For my 
patients who are from low-income communities of color, where 
asthma prevalence can be two to three times higher than the 
national average, staying at home from work is not really an 
option.
    Madam Chairperson, Ranking Member, and the committee, five 
minutes today isn't enough to share with you all the stories of 
my patients whose health has been hurt by climate change, nor 
is it enough time to fully describe how climate change is 
taking a toll on the most vulnerable populations.
    Thank you for giving me this time today.
    Chairwoman Maloney. Thank you for your testimony.
    Dr. Salas, you are now recognized for your testimony.

 STATEMENT OF RENEE N. SALAS, ASSISTANT PROFESSOR OF EMERGENCY 
                MEDICINE, HARVARD MEDICAL SCHOOL

    Dr. Salas. Thank you to Chairwoman Maloney, Ranking Member 
Comer, and members of the Oversight and Reform Committee, for 
holding this hearing and inviting me.
    I testify before you as a practicing emergency medicine 
doctor who is both on the front lines of the climate crisis and 
the COVID-19 pandemic. I have dedicated my professional life to 
preventing harm and improving health for my patients through my 
clinical work, where I received my training in Ohio, not far 
from my home in Michigan, and through my work at the nexus of 
climate change and healthcare.
    I chose emergency medicine because it provides me the 
unique privilege of treating whoever walks into my department, 
and it's a beautiful palette of humanity every shift. From the 
homeless to professional sports players, every life is equally 
valued and provided equal care.
    I am honored to be here today to represent my patients and 
to bring their often unheard voices to these halls of power, 
because the decisions that get made here have widespread health 
ramifications for everyone.
    Patients like the young, strong, and otherwise healthy 
construction worker who had two jobs to support his growing 
family in record-breaking heat. By the time he arrived at my 
emergency department, his organs were already failing as we 
rapidly tried to cool him. His story showcases that no one is 
invincible.
    Or patients like the elderly man whose wife called 911 
because he was acting confused. The medic said the temperature 
in their apartment felt like the Sahara Desert because they had 
no air conditioning and only one open window. This man's core 
temperature was 106 degrees Fahrenheit. When I tell this story, 
I often wonder about his wife, who remained in the apartment 
that day while her husband was taken to the hospital.
    His story underscores that vulnerable populations, like the 
elderly, poor, certain racial minorities, and children, are 
currently bearing the brunt of the health harms from climate 
change, and her story represents those that are left behind.
    These patients may seem different in many respects, but 
they are joined together by one common vulnerability. Both 
faced death from heatstroke, the most severe form of heat 
illness and just one of the enormously broad ways in which 
climate change harms health.
    Now, my medical training prepared me to treat patients with 
heatstroke, but climate change is increasingly threatening the 
tools that I need to do it, as extreme heat and climate-
intensified weather threaten our healthcare infrastructure, 
power, and supply chains.
    Following Hurricane Maria, there was an intravenous saline 
shortage that even reached my hospital here in Boston. We were 
forced to ration IV fluids and give patients who didn't meet 
the severity criteria a bottle of Gatorade. This story 
highlights the far-reaching implications of cascading failures.
    Carbon pollution and the intricately connected air 
pollution, fueled by the production and use of fossil fuels, is 
making it harder for me to do my job and disrupting the very 
healthcare systems that I rely on to provide care to my 
community when people need it most.
    For so many of my patients harmed by climate change, I 
often feel like I'm putting a Band-Aid on a bullet wound, as I 
may be able to improve their symptoms, but then I send them 
back out my doors without having gone upstream to the root of 
problem.
    The climate crisis is both a meta problem, meaning it 
underlies other problems, and as a threat multiplier, meaning 
it makes existing problems worse. Thus, climate change touches 
everything and is creating headwinds to successfully tackle our 
Nation's most pressing health challenges today, including the 
COVID-19 pandemic.
    In my emergency department, I can't take just one health 
problem and place it in isolation when treating a patient. One 
insult on the body creates new problems and worsens old ones, 
just like climate change. Thus, we have to take an integrated 
approach when tackling these problems.
    As Members of Congress, you have the power to create real 
upstream solutions that can address the root causes of climate 
change and help build the health systems that can prevent 
illness or death in my patients in the first place.
    The pandemic has placed a focus on health issues in our 
country like never before in our lifetimes and exposed our 
underfunded public health infrastructure and fragile healthcare 
systems. More importantly, it has shown us that when we ignore 
the science and delay action, people die.
    So, I urge you to make health the driver of climate action, 
to recognize that the goal of protecting health is common 
ground for all of us, to take an integrated approach when 
seeking solutions for these problems, and to collectively vow 
to learn from the suffering and loss that we are experiencing 
with the pandemic and avoid making the same mistake with the 
climate crisis.
    My colleagues and I in the health community are running out 
of Band-Aids, and our patients need definitive treatments 
upstream from our exam rooms. But we need your help.
    Thank you.
    Chairwoman Maloney. Thank you very much.
    Mr. Shellenberger, you are now recognized for your 
testimony.

  STATEMENT OF MICHAEL SHELLENBERGER, ASSISTANT PROFESSOR OF 
           EMERGENCY MEDICINE, HARVARD MEDICAL SCHOOL

    Mr. Shellenberger. Thank you very much, Chairwoman.
    My name is Michael Shellenberger. I'm founder and president 
of Environmental Progress. As background, I'm an invited expert 
reviewer to the Intergovernmental Panel on Climate Change, a 
Time magazine Hero of the Environment, and I have been and 
remain a climate activist for the last 20 years.
    In the early 20000's, I co-created and advocated for the 
predecessor to the Green New Deal, which we called the New 
Apollo Project and which became the $90 billion Federal 
Government investment in clean energy under President Barack 
Obama.
    I've also been working with climate scientists for the last 
five years to advocate the continued operation of America's 
nuclear power plants, which are our largest source of zero-
emissions electricity, and yet nuclear plants are at risk of 
shutting down across the country, raising serious air pollution 
and public health concerns as well as climate concerns.
    I recently authored a new book, ``Apocalypse Never,'' which 
pushes back against the extremism and alarmism which is causing 
serious mental health problems, including among adolescents. 
While my 14-year-old daughter is fine because I explain the 
science to her, many of her friends don't know if they will 
live long enough to have children. Half of the people surveyed 
around the world late last year thought climate change 
threatened human extinction. There is no scenario for human 
extinction, nor any apocalyptic scenario, in the 
Intergovernmental Panel on Climate Change's reports.
    I see myself as somebody that--if you were a cancer doctor 
or somebody who cared about public health, but your colleagues 
were going around saying that billions of people would die of 
cancer, that's a problem, and we need to take it very 
seriously.
    I also hope there's a chance to have some real dialog here. 
Last week, I participated in a hearing by a different House 
committee, and I had two members of the committee accuse me, 
make false accusations against me, and then gaveled the hearing 
to a close without a chance to respond.
    I think it's important to look at what the IPCC writes 
about these issues. And this is something that I object to in 
some of the things we've already heard. IPCC describes the 
challenges related to climate change on health, but it stresses 
that the major factors are, quote/unquote--I'm just going to 
quote directly from IPCC. The most effective measures to reduce 
vulnerability--and this is with very high confidence: clean 
water and sanitation; healthcare, including vaccination and 
child health services; disaster preparedness and response; and 
poverty alleviation.
    We need to deal with the biggest factors, and I think 
there's been sort of--we've been missing some of those biggest 
factors.
    So, for example, we often hear about the heat waves in 
France in 2003, which resulted in many additional deaths. But 
what people forget to notice is that, in 2006, the French 
Government, in response to those heat wave deaths, took actions 
that ended up reducing the estimated death toll by 4,000.
    So, this idea that we are helpless to respond to these 
effects I think is false and creates a sense of helplessness 
among people that contributes to the rising anxiety and 
depression.
    The World Health Organization and the IPCC both note that 
there's been a 30-percent decline in the global burden of 
disease. We should celebrate this. In other words, things are 
going in the right direction. Life expectancy is continuing to 
rise around the world. We've seen a 90-percent decline in 
natural disaster deaths. We have 25-percent global food 
surpluses.
    That doesn't mean that we shouldn't do anything. We should, 
and we are. But I think we need to do it with some sense of 
what the trends are.
    And this goes for air pollution as well. Between 1980 and 
2018, carbon monoxide levels in the U.S. decreased 83 percent; 
lead levels decreased by 99 percent; nitrogen dioxide, 61 
percent; ozone, 31 percent; sulfur dioxide by 91 percent. 
That's not an argument for not doing anything, but it's an 
argument for actually taking action in the context of pretty 
amazing successes and building on them.
    As was noted earlier, our carbon emissions have been going 
down in the United States for the last 13 years. In fact, 
they've declined more than they would've declined under the 
Obama Administration's Clean Power Plan. They declined 34 
percent between 2005 and 2019. They would've only declined 32 
percent under Obama's Clean Power Plan.
    I think we need to be concerned about some of the policies 
that are being proposed here that could actually make things 
worse. Anything that makes energy, food, or housing more 
expensive disproportionately affects the poor and people of 
color. And we've seen that in California, where our electricity 
prices went up six times more than they did in the rest of the 
United States. There's now a civil-rights lawsuit against 
California's climate policies for that reason.
    There's much more to say, but I'll close by saying, I think 
one of the most urgent things is to prevent the continued 
closure of nuclear power plants. When that occurs, the evidence 
is now overwhelming from around the world that deadly air 
pollution increases. So, if this committee wants to address 
something right away that really is an emergency, I would 
encourage this committee to consider what it can do to keep our 
nuclear power plants operating and even expand them.
    Thank you very much, Congresswoman.
    Chairwoman Maloney. Thank you very much.
    The chair first recognizes the gentleman from California, 
Mr. Rouda, for five minutes for questions.
    Mr. Rouda?
    Mr. Rouda. Thank you. Thank you, Chairwoman Maloney.
    When we talk about climate change, I think it is of utmost 
importance that we ground ourselves in strong scientific 
findings. This hearing should not be a time where we debate 
whether climate change is in fact occurring, where we debate 
whether climate change is in large part caused by human 
activity, or where we call someone an alarmist for wanting to 
immediately act on climate to save lives.
    The stakes are simply too high for that, because, as Dr. 
Shindell has testified here today, millions of American lives 
are at risk if we in Congress don't stop ignoring the experts 
and work together in a bipartisan manner to immediately pass 
major climate legislation.
    Where I live, in Orange County, California, Dr. Shindell's 
research informs us that, if we act now to ensure that we meet 
the goals under the Paris Agreement by 2040, we would have 
avoided 21,000 premature air-pollution-related deaths.
    Dr. Thakur and Dr. Salas--and hopefully I'm pronouncing 
that correctly--as practitioners who serve on the front lines 
of every public health crisis, would you agree that saving this 
many lives in just one county in the United States is reason 
alone to act immediately on climate?
    Dr. Thakur. Yes, I would agree with you that acting on 
climate change now will help save many lives, not just in your 
county but across the United States and the world.
    Dr. Salas. And I would have to echo that and say that, for 
me, when I'm standing next to the bedside of a patient, if I 
can do something to save that one patient's life, then that is 
enough. So, to talk about numbers of that magnitude is 
enormously powerful.
    Mr. Rouda. Thank you.
    And let's talk about the specific cost of inaction. The 
reason being is that, although my Republican colleagues have 
given us many reasons why we should not act on climate change, 
the one that seems to always come up is that it's too costly.
    What we need to understand here today and what we explored 
in my hearings via our subcommittee is that it's actually the 
opposite. Inaction on climate change is more costly than if we 
took action.
    So, Dr. Shindell, what does your research find about the 
economic damage this country will suffer, America will suffer, 
in just 20 years if we do not take actions consistent with the 
goals set forth in the Paris accord?
    Mr. Shindell. Well, what we find are that there are severe 
costs both for public health--and that's direct medical 
spending, people going to the hospital, people being admitted 
to the ER, as well as costs associated with death. There are 
also severe consequences, billions of dollars lost, due to 
reduced labor productivity from it simply being too hot to go 
to work or people having to stay home, as we heard from some of 
the practitioners, to care for sick children, sick elderly 
folks.
    So, that's not even including things like the cost of 
increased severity of storms, our climate-intensified weather. 
We find that these costs to American businesses greatly 
outweigh the cost of making a clean-energy transition.
    Mr. Rouda. And one of the other aspects of that--and 
correct me if I'm wrong, but--is how do we quantify the 
increased healthcare costs associated with climate inaction, as 
well, correct?
    Mr. Shindell. That is correct. This is why you sometimes 
hear the claim that it costs too much to take action, and 
that's because people are leaving out these somewhat hidden 
prices, where every business in the country is paying higher 
health insurance premiums because of all of the health impacts 
inflicted by burning of fossil fuel. So, if you leave those 
out, fossil fuel seems cheap. If you actually account for these 
costs, then renewables are far less expensive than fossil 
fuels.
    Mr. Rouda. Exactly. Thank you.
    And, Dr. Greenstone, your new research takes it a step 
further; it actually looks at, over the next 100 years, some of 
the cost of inaction on climate change with extreme heat. Could 
you briefly describe how your research puts the cost of extreme 
heat above what was previously done?
    Mr. Greenstone. Yes. Thank you, Congressman.
    So, previously, we had thought that the costs of extreme 
heat were about $2 per every ton of CO2 emitted into the 
atmosphere, and our frontline results is that that number was 
too small by maybe a factor of 18. So, our frontline result is 
that every ton of CO2 that goes in the atmosphere produces 
about $37 of mortality damages.
    And I think it's cause for--or underscores the urgency of 
revisiting our estimates of the social cost of carbon and the 
benefits that we would get from the kinds of policies that 
would reduce CO2 emissions.
    Mr. Rouda. And when you look at this impact, is it a rural 
issue, an urban issue, a Democrat issue, a Republican issue? 
Where does it impact us?
    Mr. Greenstone. Yes, the heat doesn't care where you live 
or where you vote--or who you vote for. It is unequal, but it 
is spread all over the country.
    Just in some of the districts of members on this committee, 
I did a little looking late last night, and there's Republican 
districts where the damages will be very large; there's also 
Democratic districts where the damage will be very large.
    Mr. Rouda. And we're seeing, right now, here in California, 
we are in wildfire season. We have wildfires we're battling 
right now. We're also dealing with hurricanes and tropical 
storms on the East Coast. These severe weather events even 
cause greater economic and health costs.
    Does your research pick up those additional costs 
associated with greater weather events?
    Mr. Greenstone. Thank you for the great question, 
Congressman. No, actually, this research is only about the 
temperature effects of climate change. So, the impacts of 
stronger hurricanes and wildfires on human health, all of that 
would be an added to this $37 that I was mentioning.
    And, you know, maybe it's just worth highlighting to put--
the $37 sounds a little abstract. But the Trump administration 
has a social cost of carbon inclusive of all costs of climate 
change--mortality, wildfires, hurricane risks, labor 
productivity, on and on and on. That's $7. So, what we're 
finding is just the mortality risks only are five times larger 
than the Trump administration's estimated benefit of reducing 
CO2.
    Mr. Rouda. Thank you.
    Chairwoman Maloney. The gentleman's time has expired.
    Mr. Rouda. Thank you, Madam Chair. I yield back.
    Chairwoman Maloney. Thank you.
    The chair recognizes Ranking Member Comer for five minutes 
for questions.
    Mr. Comer. Thank you.
    Mr. Shellenberger, do you believe in climate change?
    Mr. Shellenberger. Well, yes. I mean, of course I think 
climate change is happening. I think it's being caused by 
humans. I've dedicated the last 20 years of my life to 
addressing it.
    My concern is with the just gross misrepresentation of what 
the best available science says that's having these severe 
mental health impacts.
    So, I think it's possible to be somebody that's very 
concerned and wants to take action on climate change and also 
pushes back against the extreme alarmism that we've been 
seeing.
    Mr. Comer. Let me ask you this. Do you believe that climate 
change is the biggest threat to mankind?
    Mr. Shellenberger. Absolutely not. I don't know any 
scientific organization--any serious, credible scientific 
organization that makes such claims. It's not even our most 
severe environmental problem.
    In fact, I think when you--one of my concerns with what I 
hear today is people continuing to conflate climate change and 
air pollution. They're both serious issues we should address, 
but it appears like there's some sort of effort to describe 
climate change as these air pollution problems. They're 
different. And, in fact, we don't solve problems by combining 
them. We solve them by breaking them apart and dealing with 
them separately.
    So, yes, in answer to your question, I don't think there's 
any evidence that climate change is our most serious 
environmental problem.
    Mr. Comer. Well, do you believe that climate change should 
be described as a crisis or emergency?
    Mr. Shellenberger. No. We should be reserving these words, 
``crisis'' and ``emergency,'' for actual crises and 
emergencies. I think we can all--we're all at home right now 
because we're in the midst of a coronavirus emergency. And 
``emergency'' and ``crisis'' suggests a time--an urgent time-
delimited factor.
    So, we've been dealing with climate change for decades. 
It's going to be a problem we're going to continue to have to 
deal with for centuries. That's not to say that we shouldn't 
take action. We should, and we are. In fact, this idea that 
somehow, we're not dealing with climate change is just belied 
by the fact that U.S. emissions have declined 34 percent since 
2005.
    So, yes, I hope that answers your question. I don't think 
we should just call everything we that care about a crisis or 
emergency because we think it will help us politically or 
something.
    Mr. Comer. Right.
    Mr. Shellenberger, has any credible scientific body ever 
claimed that climate change threatens the collapse of 
civilization or the extinction of the human species?
    Mr. Shellenberger. Absolutely not. There is nothing in any 
of the United Nations Intergovernmental Panel on Climate Change 
reports suggesting that, nothing in the United Nations Food and 
Agriculture Organization.
    In fact, there's every reason to believe that deaths from 
natural disasters should continue to go down, that food 
production should continue to go up, and that the global burden 
of disease should continue to go down, as it has been for 
decades and centuries really.
    Mr. Comer. So, do you believe that climate change causes, 
as we've heard from several extremists, diseases similar to 
COVID-19 to be more frequent and severe?
    Mr. Shellenberger. So, the IPCC reviews several diseases. 
One of the most famous is malaria, but also dengue. And what 
you find when you review those is the same thing that we find 
everywhere, which is that there's just bigger factors behind 
malaria.
    We know how to deal with malaria. It's by draining your 
wetlands or controlling it so you don't have the breeding of 
mosquitoes, and then you apply--the careful application of 
insecticides. That also makes the difference for dengue.
    IPCC is very clear about this. There's every reason to 
think that deaths from malaria should continue to go down even 
as temperatures rise.
    Mr. Comer. All right.
    My last question, Mr. Shellenberger: Many of the policies 
contained in the Select Committee on Climate's majority staff 
report closely mirror the approach that you've seen in 
California, both in targets and policies.
    It's worth noting that, in the last 10 years, California 
ranked 44th in carbon emission reductions, according to the 
EIA, and yet energy costs are significantly higher than the 
rest of the Nation there in California.
    Can you tell us a little bit about your experience in 
California regarding the impacts of their climate policies on 
jobs, housing costs, and health?
    Mr. Shellenberger. Well, absolutely. As I mentioned, 
California's electricity rates rose six times more than they 
did in the rest of the United States since 2011. That's 
directly because of the incredible expansion of renewables and 
the infrastructure associated with it.
    I would note that my fellow panelist, Michael Greenstone, 
found that Americans in states with renewable-energy mandates 
paid $125 billion more in electricity in the seven years after 
the passage of that. We now have a civil-rights coalition that 
has sued the state of California because they're saying that 
our climate policies will make homes between $40,000 and 
$400,000 more expensive.
    And it's just notable to me that California is in the midst 
of closing down our last nuclear plant, as is New York, Indian 
Point. And we know now from Japan, from California, the closure 
of the last nuclear plant, that air pollution rose 
particularly--and it worsened particularly for poor communities 
and communities of color.
    So, there could be nothing worse, nothing more 
hypocritical, for people who claim to care about air 
pollution's impact on health and claim to care about climate 
change to be actively seeking the closure of America's nuclear 
power plants.
    Mr. Comer. Well, those are great facts and figures. I 
certainly appreciate you being here. And we certainly don't 
want to model America's energy policy after California's failed 
energy policy.
    But, Madam Chair, I yield back the balance of my time.
    Mr. Shellenberger. Thank you, Congressman.
    Mr. Shellenberger. Thank you, Congressman.
    Chairwoman Maloney. Thank you very much.
    The chair now recognizes herself for five minutes in 
questioning.
    Dr. Shindell, I would like to ask you about the facts your 
new research shared with the public this morning urging us to 
act.
    Dr. Shindell, you have found that keeping climate change to 
2 degrees C would save 4.5 million American lives over the next 
50 years. Is that correct?
    Mr. Shindell. Yes, that is correct.
    Chairwoman Maloney. How would 4.5 million Americans' lives 
be saved?
    Mr. Shindell. The largest method of that would be via 
cleaner air. And it's the cleaner air that leads to people 
dying from strokes, from lower respiratory infections, from 
many causes of disease, diabetes as well. That's not often 
recognized by the public, but well established by the medical 
community.
    Chairwoman Maloney. Dr. Shindell, is the world currently on 
track to keep global warming below 2 degrees C?
    Mr. Shindell. No.
    Chairwoman Maloney. Do you believe that saving 4.5 million 
American lives over the next 50 years is a good reason for the 
Federal Government to act on this issue?
    Mr. Shindell. Well, to my mind, this is one of the key 
reasons we have a Federal Government in the first place, is to 
care for the welfare of the citizens. So, to my mind it would 
be unconscionable to realize these benefits could be obtained 
and not attempt to obtain them.
    Chairwoman Maloney. Does your research show that the cost 
of inaction will be greater than the cost of acting to limit 
global warming?
    Mr. Shindell. It shows that the cost of inaction would be 
far, far greater than the cost of action. We actually come out 
well ahead by taking action now.
    Chairwoman Maloney. Well, here is one of my deepest 
concerns. The President has shown us that he and his 
administration put politics ahead of science. Just take a look 
at the way they have handled the corona crisis. The President 
first called the coronavirus a hoax. He has ignored the facts 
and science. Our constituents are paying for his leadership 
failure with their lives.
    And they're using the same playbook for climate change. The 
coronavirus pandemic shows us that there are real consequences 
when our leaders choose to abandon the facts and abandon their 
responsibility to prepare. We cannot ignore these lessons as we 
prepare for the harms of climate change.
    I now recognize the next Republican, and that person is 
Congressman Gosar. And now I will let the staff recognize the 
people that will be testifying as I----
    Mr. Gosar. What's that? Can you hear me?
    Chairwoman Maloney. Yes.
    Mr. Gosar. Can you hear me?
    Chairwoman Maloney. Yes, we can.
    Mr. Gosar. OK.
    Good morning. Once again welcome, everybody, to a new day 
of Groundhog's Day. It's like February all over again. And then 
we combine that with Chicken Little and the sky is falling. 
It's incredible that we sit here. We sit here in this committee 
and talk about the issues of climate change once again. 
Democrats talk about how we need to shift our energy to 
strictly renewables, yet they don't want to face the harsh 
realities that come along with it.
    Madam Chairwoman, it is becoming increasingly clear that 
renewables cannot completely be relied upon for powering our 
country 100 percent. It's also becoming clear that they cannot 
be fully relied upon to limit carbon emissions.
    The Republican witness, Mr. Shellenberger, authored an 
article, ``Why Renewables Can't Save the World.'' In this 
article, Mr. Shellenberger discusses the contrast between 
France and Germany.
    Now, it's interesting. France is almost completely powered 
by nuclear energy and produces one-tenth, yes, one-tenth of the 
carbon of Germany, who is a world leader in renewable energy 
production. This discrepancy can only be explained by France's 
reliance on nuclear energy and uranium to supply their power 
grid.
    Now, Mr. Shellenberger, could you describe the importance 
of France's nuclear energy system and its relation to low 
carbon emissions?
    Mr. Shellenberger. Thank you, Congressman.
    Yes, I think that to avoid cherry-picking data it's 
important to look at two big countries over time. And that's 
what you get with France and Germany, two major countries right 
next to each other. Over time, Germany is moving away from 
nuclear. France is 75 percent nuclear, as you mentioned. France 
spends almost half as much on electricity. That is ten times 
less carbon intensive than German electricity.
    We have seen German electricity prices rise 50 percent as 
it scaled up renewables over the last 10 years. It is the exact 
same dynamic in California. There's been many claims that 
somehow it's different now, that the cost of solar panels is 
lower, but the big cost associated with renewables is dealing 
with the unreliability and the large land use requirements.
    So, as a conservationist, as somebody who cares about 
climate change and conservation, it's shocking when you realize 
that the dilute nature of sunlight and wind is what requires 
solar, industrial solar and wind farms. They require 300 to 400 
times more land than a natural gas plant or a nuclear power 
plant.
    I think it's telling, Congressman, that in your state of 
Arizona you have the largest nuclear power plant in the United 
States, it provides huge quantities of clean energy, and yet 
there was this concerted effort to shut that plant down and 
replace it with natural gas and solar panels. It's 
preposterous. It's the same effort that's happening in New York 
and California.
    So, what concerns me is to see so many people that claim to 
care about climate change that want to demonize people raising 
concerns about their policies as climate deniers, even as they 
themselves are seeking to shut down our largest source of zero-
emissions energy, often for reasons that I don't think have 
anything to do with the natural environment.
    Mr. Gosar. You bring up another good point, Mr. 
Shellenberger. Can you explain the difference between base load 
and intermittent energy? Because it's an important discussion 
that people have to understand.
    Mr. Shellenberger. Yes. So, any time you're using--solar 
and wind produce electricity for somewhere between 10 and 40 
percent of the time, depending on where you are. Arizona and 
California are the best. And right now California has to pay 
Arizona to take our excess solar electricity because we produce 
too much solar electricity when we don't need it, we don't have 
demand for it. So, that's another additional cost externalized 
onto the natural environment.
    Solar and wind--solar panels and wind turbines also have no 
decommissioning costs built into the cost of the plants 
themselves. The waste goes directly to landfills. Right now, 
sometimes it's dumped on poor countries. There is no solution 
to solar panel waste. It has not been cost-effective to 
recycle. That's why we just end up--solar producers just end up 
buying raw materials.
    So, there's just a variety of ways in which solar and wind 
in their unreliable nature--and this also something, by the 
way, that Professor Greenstone found in his study, it's the 
unreliable nature of solar and wind that make it so expensive, 
so difficult to manage, because you always have to have 
reliable electricity. That's why--that's how our whole 
electrical grid system works.
    Mr. Gosar. Yes. So now, I am going to switch gears a little 
bit. Going back to the importance of critical and rare minerals 
in the United States, where typically do they come from?
    Mr. Shellenberger. Well, this is a huge concern. I mean, 
the idea that we should become heavily dependent on solar 
panels imported from China--that's where they come from, we 
don't produce the vast majority of them here--is a scary 
prospect.
    Also, those are not good jobs, by the way, just installing 
solar panels. Whereas, at Palo Verde, the nuclear plant in 
Arizona, other nuclear plants, you can have three generations 
of people in the same family working at a nuclear plant, 
because nuclear plants can operate for over 80 years.
    We see these wind turbines, solar panels, they start to 
lose their power output right away. The jobs doing them tend to 
be low-tech, low-skill, and low-wage jobs, in contrast, I 
think, to some of the claims that have been made about what 
those jobs are.
    Mr. Gosar. So, I would like to get down to the brass tacks. 
To get serious about renewables, we have to seriously look at 
perpetuating nuclear energy, and as well as looking at our sole 
supply--supply chain of rare earths and minerals. Would you 
agree with that?
    Mr. Shellenberger. Absolutely.
    Chairwoman Maloney. Congressman, your time has expired, but 
he may answer your question. OK.
    Mr. Shellenberger. Thank you, Congressman.
    Yes. I raised the alarm about this last week, and I will 
raise it again. We're in very serious trouble. China and Russia 
are building--are in the process of building and selling 
nuclear plants around the world.
    This is our most important and most dangerous dual-use 
technology that America has always sought to have dominance of, 
and now we're basically giving it away to the Chinese and 
Russians. Any country that builds a nuclear power plant is in 
the sphere of influence of the country that's helping them to 
build it.
    So, again, if you want to talk about a very serious 
challenge facing American national security as well as our 
environmental and public health, it's our complete abandonment 
of nuclear energy and the managed decline of nuclear energy in 
the United States.
    Mr. Gosar. Thank you, Mr. Shellenberger.
    Mr. Shellenberger. Thank you, sir.
    Chairwoman Maloney. Next, Congresswoman Norton is 
recognized.
    Congresswoman Norton.
    Ms. Norton. Madam Chair, I thank you very much for this 
very important hearing.
    When we think of--I have been thinking of climate change in 
the past, we have been talking about and thinking about what we 
are actually experiencing, heat waves and floods and extreme 
weather conditions that are already apparent throughout the 
world. But there's been very little focus on human health, and 
that's why this hearing is so important.
    Now, the last six years have been the warmest ever 
recorded. And last year was, I believe, the warmest. So, I'm 
not sure what else we need to alert us to do something fast.
    Now, we're having heat waves as I speak, Madam Chair, in 50 
cities, and among them is the Nation's Capital, where many of 
you are, and, of course, it is my home district. And I am 
concerned that climate or heat waves themselves are longer in 
duration.
    So, I have a question about human health to Dr. Salas, 
because as an emergency room physician, I would like to know 
whether you're seeing patients develop conditions that have, in 
your judgment, been worsened by extreme heat. And, if so--or 
maybe not--what are the most common problems associated with 
heat, Dr. Salas, do you see?
    Dr. Salas. Well, thank you very much for the question. And 
you are right, heat is probably our best understood climate 
exposure pathway or the way in which health is harmed by 
climate change.
    But I often view our current knowledge as an iceberg. So, 
we see what's on top of the surface of the water, but actually 
what keeps me up at night is the largest mass underneath.
    And I would like to bring up that recently emerging 
evidence has shown that extreme heat is linked with microbial 
resistance to antibiotics, to congenital heart disease, to 
rising incidence of diabetes and mental health issues and 
rising suicide.
    So, this is all early, but I just--you know, heat is sort 
of that insidious threat multiplier that I think worsens 
existing diseases. It causes heat emergencies, like I talked 
about in my opening testimony. And I think there's a whole 
suite of ways in which it harms health and makes it harder for 
me to do my job, because we know that heat is also increasing 
the risk of power outages at hospitals.
    Ms. Norton. When you point out some of the diseases that 
are affected by climate change, you are, I think, opening up a 
whole series of--a whole set of research that we need to do. 
Climate change on specific conditions, very important 
testimony.
    I want to go next to Dr. Thakur, because I am particularly 
concerned about asthma. We know about the increase in asthma.
    And I want to ask a question, Dr. Thakur, about the seven 
percent of adults and eight percent of children in the United 
States that have asthma. I wonder whether extreme heat can be 
dangerous to people with asthma, and if so, why would that be 
the case?
    Dr. Thakur. So, during extreme heat events it causes 
breathing to worsen. So, for those individuals that have 
asthma, they become short of breath and they can have a risk 
for exacerbation of asthma attacks.
    I also think it's important to remember that heat also 
causes ozone production to be increased at the ground surface, 
and ozone itself is an important pollutant that contributes to 
the development of asthma. So, not only is heat in its moment 
exacerbating asthma among those
    [inaudible] that have it, it also can be leading to
    [inaudible] asthma and
    [inaudible] conditions in low-income communities.
    Ms. Norton. Dr. Thakur, if global temperatures continue to 
rise, is it safe to assume that heat-related illnesses and 
deaths will also continue to rise? That's a question for you, 
Dr. Thakur, and Dr. Salas.
    Dr. Thakur. Yes. I think if we see heat continuing to rise 
and continue to experience the extreme heat events that we've 
been having for the past five years, we will continue to see 
increased mortality and deaths related and morbidity related to 
heat waves.
    Ms. Norton. And Dr. Salas?
    Dr. Salas. Yes, I agree. So, as an emergency medicine 
doctor, I am trained to identify emergencies, and the rising 
heat exposure is an emergency.
    Ms. Norton. I thank you both.
    And again, Madam Chair, I thank you for this very important 
hearing, and yield back.
    Chairwoman Maloney. Thank you very much.
    Representative Massie, you are now recognized for five 
minutes.
    Mr. Massie. Thank you, Madam Chairman.
    Dr. Greenstone, I really appreciate that you provided the 
data that came out of your study and pointed out that 
regionally it varies, that there's just not one answer 
nationwide.
    I was interested, particularly, in the climate-induced 
mortality risk impact of an increase in temperature. And you 
explained why actually people could live longer in Cook County, 
Illinois, and that's what your data shows, if the temperature 
goes up. Of course, your data shows that they would live 
possibly a shorter life if they were somewhere else in the 
United States.
    But can you explain why Florida could see a decrease in 
climate-induced mortality risk when the temperature goes up? 
That was an interesting finding in your data.
    Mr. Greenstone. Thank you for the question, Congressman. 
It's an important question.
    There are some--the Florida results are largely, we think, 
because they have already done all the adaptations they could 
do, and their population is projected to continue to age, and 
so you'll have people who--more and more people who are 
susceptible to stress since there will be more--this will lead 
to a reduction in mortality input (inaudible).
    Mr. Massie. They could live longer in Florida if the 
temperature--or if the climate----
    Mr. Greenstone. I am sorry. I am sorry. I misspoke. Let me 
try again.
    The demographics of the people in Florida are projected to 
change. What does that mean in particular? That means that the 
population is projected to get younger. That the--and most of 
the heat-related mortality comes from the elderly. So, as the 
population gets younger, that will naturally lead to lower 
mortality rates.
    Mr. Massie. OK. Thank you very much.
    Let's see. Dr. Shindell, you mentioned that it's your 
opinion that if people reduced consumption of cattle-based 
foods that that would reduce methane emissions.
    Do you believe that methane production from ruminating 
animals is higher today than it was before Europeans settled 
North America?
    Mr. Shindell. Different animal species emit different 
amounts of methane, and cows are particularly large. So, it's 
not something that I believe, it is data from the World Health 
Organization which shows that in North America, on average, 
adults eat around six times more beef and dairy products from 
cows than is recommended for their own health.
    Mr. Massie. Right. Yes.
    Mr. Shindell. So, reducing that would improve our health 
and reduce methane.
    Mr. Massie. That wasn't my question. My question is, is 
there more methane produced by animals, ruminating animals in 
North America, than there was before we industrialized it and 
before we colonized it?
    Mr. Shindell. Yes, that is also true.
    Mr. Massie. How many buffalo or bison were there in North 
America before Europeans settled it?
    Mr. Shindell. Those are less intense, and that's what I was 
trying to get at in my original answer, is that cows emit more 
per head than sheep or goats or bison or other ruminant 
animals.
    Mr. Massie. Does a cow that eats corn produce more methane 
or less methane than one that eats grass?
    Mr. Shindell. It is not a very large difference.
    Mr. Massie. That wasn't my question. Which produces more?
    Mr. Shindell. I'm not positive of that. To my mind, they 
are about the same.
    Mr. Massie. Then how can you make a statement that cattle, 
domestic cattle, produce more methane than the buffalo did 
before we got here? Because that statement is false.
    Mr. Shindell. No, because buffalo are not the same animals 
as cows. Those are different species, and that's what I was 
getting at. Different species emit different amounts of methane 
per head.
    Mr. Massie. Yes, but you have no idea. You're just 
guessing. You don't even know the answer.
    Mr. Shindell. No, we have solid data on that. I said I do 
not know the amount of methane based on the diet of the animal, 
but the amount of methane per species.
    Mr. Massie. So, how many buffalo were there? How many 
buffalo were here or bison?
    Mr. Shindell. I can't tell you the exact number, but we 
have observations of methane.
    Mr. Massie. If you don't know the number, how could you 
know if our methane production has gone up or down?
    A quick question for Dr. Thakur. My time is expiring.
    Dr. Thakur, I'm glad you pointed out that CO2 is plant food 
and that growing seasons are extended when CO2 goes up in the 
environment. Is that what you said?
    Dr. Thakur. I said that CO2 production causes pollen, 
increased pollen production, and does prolong the growing 
season. And the increased pollen production exacerbates hay 
fever or allergic diseases such as asthma.
    Mr. Massie. And you said that it extended it in Minnesota 
and North Dakota, which produce--they're No. 1 producers of 
green peas, sweat corn, honey, oats, wheat, red kidney beans. 
How much more of that can be produced when the CO2 goes up?
    Chairwoman Maloney. Your time has expired, but she may 
answer your question.
    Dr. Thakur. I cannot comment on the production of 
vegetables or products, agricultural products. But what I can 
comment on is that CO2 increases the production of pollen of 
plants that are causing allergy diseases, including for my son 
and for my patients that causes them to have prolonged asthma 
exacerbations during the pollen seasons.
    Chairwoman Maloney. OK. Your time has expired. Thank you.
    Mr. Massie. Thank you, Madam Chairman.
    Chairwoman Maloney. Congressman Lynch, you are recognized.
    Mr. Lynch. Hello. Can you hear me?
    Chairwoman Maloney. Yes, we can.
    Mr. Lynch. OK. Thank you, Madam Chair. Thanks for holding 
this hearing. Thank you to the ranking member and to all of our 
witnesses as well.
    I do want to take a second just to push back a little bit 
on Mr. Gosar's suggestion that there's been inaction on this 
committee. I do want to thank all the members. I had 44 
cosponsors, Democrats and Republicans, that helped me on my 
bill in the NDAA, the National Defense Authorization Act.
    My bill was the Climate Change National Security Strategy 
Act, which will require, as most members know, all 13 Federal 
agencies to budget for climate change response and resiliency. 
So, we figured, back of the envelope, it will provide billions 
of dollars over the next 10 years toward climate change 
response and resiliency.
    My other bill, which had a lot of sponsors as well on this 
committee, both Democrats and Republicans, was the Green Buses 
for Every City Act, which brought a 500 percent increase on the 
amount of money we spend on green technology in our bus fleet. 
These are zero-emission buses. We put in $1.7 billion into that 
program, a 500 percent increase.
    And my amendment, in particular, targeted those zero-
emission buses to low-income and communities of color that have 
seen disparate health impacts as climate change has 
exacerbated.
    There was a troubling study--and I want to address this 
question to Dr. Thakur and Dr. Salas, because you're working on 
this--there was a study out of the Environmental Inequality Lab 
at UVA, University of Virginia, that indicated that while air 
pollution has dropped 71 percent since 1980, it hasn't dropped 
in those areas, low-income, mostly communities of color. So, 
I'm trying to get at that in some legislation.
    One of the things that really bothers me is that--so in my 
district, the FAA has gone to this concentrated flight path, 
this NextGen system. So, I have thousands and thousands of 
flights that fly over minority communities and low-income 
communities, because the rents are lower because the planes are 
so loud.
    How do we get at things like that in terms of a wider 
national approach, but also getting at those low-income and 
minority neighborhoods that are seeing this disparate impact 
because of air pollution effects?
    Dr. Thakur?
    Dr. Thakur. Yes. So, thank you for your question. This is 
such an important disparity that you highlighted. And, in fact, 
the studies show that low-income communities of color 
experience 37 percent higher nitrogen dioxide exposure, which 
is a really important traffic-related air pollutant that my own 
work has shown to be contributing to the development of asthma 
and worse pulmonary function, particularly in low-income 
communities of color.
    And what we need to be thinking about going forward is not 
only putting clean buses on the roads, but also thinking about 
other large vehicles that are on the road that are producing 
diesel and other toxic air pollutants. So, addressing policies 
toward that.
    In fact, in another study that we're working on we show 
that low-income communities, that the traffic patterns that go 
through those communities happen to be those large truck 
vehicles.
    So, you are right. While overall air quality in the United 
States has improved, it has not changed for those communities.
    Mr. Lynch. Thank you.
    Dr. Salas, my homie, could you respond to the same 
question?
    Dr. Salas. Yes, of course. And I think for me in the 
emergency department, so oftentimes a patient may have a lot of 
different symptoms, or I may see a lot of different findings. 
But I really try to get back to what the root cause is, because 
oftentimes it's one thing that's affecting a lot of different 
organs.
    I think that this relationship between climate change and 
air pollution is exactly the same in the sense that I go back 
to what the root cause is. The combustion and burning of fossil 
fuels is largely driving climate change, in addition to other 
factors, but is also creating air pollution.
    By getting to that root cause we can actually help treat 
both problems, and we get the immediate health benefits of 
reducing air pollution, and especially for minority communities 
like you pointed out.
    Mr. Lynch. Thank you, Madam Chair. I yield back. My time 
has expired. Thank you.
    Chairwoman Maloney. Representative Hice, you are now 
recognized for five minutes. Representative Hice.
    Mr. Hice. Thank you, Madam Chair.
    You know, I just want to bring this up. There have been 
several comments from--misleading comments, quite frankly--from 
our colleagues on the other side that implied that somehow the 
floods that we're seeing, the increased intensity of storms, or 
whatever, is somehow due to the climate change, when in fact 
the International Panel on Climate Change and the National 
Climate Assessment reports have both stated clearly that 
there's no evidence for that.
    So, I believe there's just a lot of fearmongering here 
going on with that for which there is no evidence to support.
    And, Mr. Shellenberger, I want to thank you for being here 
today as well. I did read the letter that you wrote to Speaker 
Pelosi regarding the experience you had with the Select 
Committee on the Climate Crisis last week. It's unfortunate 
that you experienced what you did there.
    But we are tending to see more of this new definition of 
tolerance, which means that you must agree with certain Members 
on the other side, and if you don't, there is attack and 
aggression, which I think is unfortunate. But I am grateful for 
your witness here today and for your presence here with us.
    I want to speak really quickly about the Green New Deal. 
You seem to be following this quite a bit and very much aware 
of it. There are currently a hundred Democrat cosponsors, zero 
Republicans.
    But what amazes me is some of the information that's in 
here, some of the accusations, some of the things that are in 
here. For example, claiming that the United States has a 
disproportionate amount of greenhouse gas emissions, when in 
fact, as you stated earlier, the U.S. CO2 emissions are 
declining, while we are watching emissions in other countries, 
China and India, for example, continue to increase.
    We also see in the Green New Deal a call for net-zero 
greenhouse gas emissions through a 10-year mobilization period, 
and at the same time meeting 100 percent of the country's power 
demands through clean renewable and zero-emission energy 
sources. It's just amazing to me.
    The Green New Deal also offers high quality union jobs. It 
tries to guarantee a job with a family sustaining wage and 
adequate family and medical leave, paid vacations, and 
retirement security to everyone in the country.
    These things don't have anything to do with climate.
    It also declares that we must provide healthcare for 
everyone in the country.
    According to a since deleted fact sheet that was circulated 
by a congressional office, the Green New Deal is, quote, ``a 
massive transformation of our society.''
    That's really what it is. That's what the Green New Deal is 
really all about. It's not ultimately about climate change. In 
fact, it even would provide economic security for all who are 
unable or unwilling to work. Amazing.
    The Green New Deal also implies the need to end air travel. 
In fact, the chief of staff of a Democrat behind this bill 
stated, quote, ``The interesting thing about the Green New Deal 
is it wasn't originally a climate change thing at all, because 
we really think of it as a 'how do you change the entire 
economy' thing.''
    So, with all of that--and there's tons of information out, 
we would see a GDP loss of over 15 trillion, so many stats 
here. But, Mr. Shellenberger, I just want to know, have you 
done research into the cost and benefits of the Green New Deal?
    Mr. Shellenberger. Well, thank you Congressman, and I 
appreciate your remarks earlier, and I appreciate the 
bipartisanship. As you know, I am a lifelong Democrat, and I 
support many of the aspects of other parts of the Democratic 
agenda. I am just raising these concerns here, and I appreciate 
your reaching across the aisle to let me speak.
    I wanted to also say that I just think this discourse which 
sort of suggests there's been no progress on reducing pollution 
or reducing carbon emissions, it's totally misleading, it's 
fearmongering.
    And furthermore, what's most disturbing to me is that the 
implicit argument of things getting worse, what people are 
actually saying is that ``all else being equal.'' Yes, all else 
being equal, it would be better if temperatures just didn't 
change at all because we have created this whole civilization 
around this temperature. So, all else being equal, yes, it 
would be better.
    But we have every reason to believe that deaths from 
natural disasters, food surpluses, and disease will continue to 
go down in the future. There's no reason that that should not 
occur.
    So, yes, I agree with you, if you want to solve pollution 
problems we should do it the way we have always done it, which 
is making our ways of making electricity cleaner--mostly, by 
the way, it's through natural gas and nuclear, not through 
renewables.
    And, yes, I think you are right to object. I mean, I 
personally would favor more of a Canadian healthcare system. 
You and I probably disagree about that. But I don't think 
climate legislation is the right place to implement healthcare, 
for example. You do it by breaking them apart.
    Chairwoman Maloney. Your time has expired.
    But you may continue to answer the question.
    I now recognize Mr. Connolly. Congressman Connolly.
    Mr. Connolly. Yes, Madam Chairman, before I begin, before I 
begin, could I correct the record? Dr. Greenstone, in talking 
about the national capital region, said there were two members 
on the committee from the national capital region. There are 
three. All of the district that I represent is fully within the 
national capital region. So, there are three of us, not two.
    But your data is very helpful. Thank you, Dr. Greenstone.
    Thank you, Madam Chairman.
    Dr. Shindell, we have been listening to Mr. Shellenberger, 
and he says we shouldn't cherry-pick data. So, some of the data 
that I thought was striking about global warming he has not 
cited. So, let's not just cherry-pick, let's make a full 
picture.
    What's happening to CO2 and methane levels and are they 
contributing to global warming? And are they at historic levels 
or are they something we just need to live with?
    Mr. Shindell. Thank you, Congressman. That's a great 
question. And I like the way you asked what's happening rather 
than what I believe.
    These are measurements that government researchers and 
academics have made around the world. And carbon dioxide levels 
have now risen to levels we haven't seen in hundreds of 
thousands of years. Methane levels have more than doubled. And 
we have measured from space via satellite how they have 
increased the greenhouse effect over time. So, this is all 
data.
    Mr. Connolly. And that CO2 level rise, let's be very clear, 
because, again, Mr. Shellenberger cited the IPCC. Those CO2 
levels, which are at historic highs over hundreds of thousands 
of years, that's just a normal geological cycle we have got to 
adjust to? Or is that actually caused because of human 
dynamics?
    Mr. Shindell. It is unequivocally caused by human dynamics. 
And that's the case for methane as well. We have chemical 
fingerprints. We have abundant data demonstrating that.
    Mr. Connolly. So, just citing those two, we can cite 
others, what are the consequences of higher CO2 levels and 
higher methane levels that are apparently caused by human 
interaction, they're not part of the normal geological cycle? 
But so what? Can we just live with it? I mean, after all, Mr. 
Shellenberger talks about disease rates are improving, 
longevity is improving, we can adjust, all is not bad.
    Mr. Shindell. Well, there is some truth to that in that 
everything is not bad, and our civilization on this planet has 
made a lot of progress. But that doesn't mean future progress 
is guaranteed.
    And we have ample evidence from periods in the past when 
greenhouse gas levels have been high that there are severe 
consequences, things like meters and meters of rise of sea 
level. And, of course, we're seeing now record-breaking heat 
leading to an increase in the severest storms, the most intense 
storms that strike our coasts, in heat waves, and in floods and 
droughts at the same time.
    Mr. Connolly. So, in terms of a practical consequence, you 
mentioned sea level rise. What's causing sea level rise?
    Mr. Shindell. That's caused by the increased trapping of 
heat by greenhouse gases due to human activity, specifically 
CO2 and methane.
    Mr. Connolly. In other words, the melting of ice sheets?
    Mr. Shindell. It's both the melting of ice sheets, yes, and 
the expansion of the water itself.
    Mr. Connolly. And what's the projection based on the IPCC 
Mr. Shellenberger cites, what's the projection of sea level 
rise if we don't get this under control?
    Mr. Shindell. Well, sea level rise is--the good and bad 
news is the same in that it's very slow. So, if we do not get 
this under control, sea level rise could be approaching several 
feet by the end of the century, but could be many, many tens of 
feet, meaning the loss of almost all states, within the next 
couple centuries.
    Mr. Connolly. Well, aren't there some parts of America, for 
example, may be more susceptible to sea level rise, combined 
with subsidence of land, that could significantly affect 
populations like Miami, like coastal Louisiana?
    Mr. Shindell. Definitely. And, in fact, a huge fraction of 
our population lives in harm's way because they live on the 
coast, even Los Angeles and western cities. But you're right, 
the Southeast is the most susceptible.
    Mr. Connolly. So, the charge has been made by Mr. 
Shellenberger and some of my friends on the other side of the 
aisle that people like you are extreme alarmists and you are 
engaged in fearmongering. I want to give you the opportunity to 
respond to that.
    Mr. Shindell. Well, as was mentioned in my introduction, I 
have worked on the Intergovernmental Panel on Climate Change 
reports, and I think that they have been, if anything, quite 
conservative. They are consensus documents where we get 
scientists from all over the world to agree on what we know 
with the most certainty.
    Looking back at these documents and comparing what's 
actually happened with what we have projected to be likely over 
the past 20 years or so, we find that more than 10 to 1 we 
underpredicted the severity of consequences that we discussed.
    I would say that there's no such thing as fearmongering or 
alarmism within the scientific community. There is some of that 
in the media, potentially. But it is inaccurate to level that 
kind of charge. The data do not support that charge when 
comparing past predictions against what actually happened.
    Mr. Connolly. Thank you. I yield back.
    Chairwoman Maloney. Thank you so much.
    Mr. Shellenberger. Chairwoman, may I respond since the 
Congressman actually repeatedly suggested I said things?
    First of all, I did not accuse Professor Shindell of 
alarmism or extremism.
    In terms of the question from the Congressman, the IPCC 
predicts median sea level rise will be 2.2 feet by 2100, just 
to get the actual number out there.
    And in terms of alarmism somehow not coming at all from the 
scientific community, I interviewed the lead author of the IPCC 
report on sea level rise, and he told me he was quoted saying 
that sea level rise would be, quote/unquote, ``unmanageable'' 
and gave the impression that it would be apocalyptic. But when 
I interviewed him, he was pointing to things like Hurricane 
Katrina and Hurricane Sandy where the flood management systems 
failed.
    So, this other idea I think the Congressman is suggesting, 
that I'm suggesting that we don't do anything, I'm advocating 
that we do things, we continue to do what we have been doing, 
which is both to reduce emissions and to become more prepared.
    So, I just want to make sure my views are fairly 
represented.
    Mr. Connolly. Madam Chairwoman, just I did not mean in any 
way to distort what Mr. Shellenberger said. I was trying to 
give Dr. Shindell an opportunity to respond to the things Mr. 
Shellenberger had said. I didn't try to characterize him; I 
tried to take his own words and ask Dr. Shindell as a matter of 
testimony to respond. Thank you.
    Chairwoman Maloney. OK. Thank you. We're going to be 
following regular order now.
    Congressman Grothman, you are now recognized.
    Mr. Grothman. Can you hear me?
    Chairwoman Maloney. We can hear you.
    Mr. Grothman. Oh, good. Wonderful, wonderful, wonderful.
    OK. I'd like talk to the doctor again a little bit more 
here with regard to nuclear energy. Obviously, I am old enough 
to remember when they made it just a horrible thing and all but 
shut it down. We still have a nuclear power plant in my 
district. One right outside of my district had to be closed.
    I'm wondering if you could comment on the amount of 
pollutants in the air today, because of we have replaced all 
these nuclear power plants, how much pollution we have because 
of it if we hadn't decided to shut off the nuclear energy, and 
the motivation you think of the people who 30 years ago did 
movies, that sort of thing, to kind of end that line of 
providing energy.
    Mr. Shellenberger?
    Mr. Shellenberger. Thank you, Congressman, for that 
question. And by the way, that nuclear plant in Wisconsin did 
not need to be closed down.
    Nuclear plants can be--American nuclear plants, not all 
nuclear plants, can be refurbished, and, in fact, they 
regularly are, to run for 80 years or longer. You might have to 
replace turbines. At some point you might have replace the 
reactor core.
    But these 60 or so sites around the United States, for 
anybody who cares about climate change, should be the basis for 
deep decarbonization because you can simply expand the number 
of reactors on a given site. Also, my view is that the used 
fuel is best stored onsite.
    In terms of how much pollution was created by the effort to 
shut down nuclear, well, you may recall that in the 1950's, 
1960's, and even early 1970's there were people that wanted to 
have 50 percent of our electricity from nuclear. Today we get 
just 20 percent.
    Every time a single nuclear reactor shuts down it's the 
equivalent of putting about a million new cars on the road. So, 
you if you get rid of our roughly a hundred nuclear reactors in 
the United States, it's like adding a hundred million cars on 
the road in terms of CO2 emissions, by the way.
    I mentioned a study in Nature Energy in 2017 that found 
that closing nuclear plants reduced birth weight significantly. 
So, I am sort of surprised to hear that people on this--the 
witnesses here talking about being concerned about communities 
of color and poor communities and not mentioning it at all that 
the closure of nuclear plants has directly affected low birth 
weight. And that was a peer-reviewed study in Nature Energy.
    We similarly saw in both Fukushima now and in--I'm sorry, 
Japan and Germany after the Fukushima accident, the closure of 
nuclear plants resulted in greater air pollution, alongside 
higher electricity costs.
    The motivations, I'm afraid, are not--have not been 
positive motivations. There's a generalized fear of nuclear 
energy associated with fear of nuclear weapons. But it was 
manipulated, starting in the 1960's, and I described this in 
great detail in my book and elsewhere, by the Sierra Club. And 
it came from this idea that nuclear energy was bad because it 
allowed for abundant energy, that energy basically eliminates 
scarcity.
    With nuclear energy there is no climate crisis. If we 
simply had scaled up nuclear energy in the 1950's and 1960's, 
as many of us imagined we would, we wouldn't be having this 
conversation today. If every country had done what France had 
done, we wouldn't be having this conversation today.
    With nuclear, with abundant infinite energy effectively, 
you get infinite fresh water, infinite fertilizer, and infinite 
food. And the people that opposed it, both here in my home 
state of California and around the world, explicitly said that 
we should not have cheap and abundant energy because of what 
humans would do with it.
    So, at the end of my testimony you may note that I have a 
passage where I note that environmental policy has been 
influenced enormously by some very reactionary ideas, I think, 
that are very anti-human ideas, that suggest that humans are a 
cancer on the Earth and that we need to stop the spread of that 
cancer by reducing the amount of--by making--basically by 
making food and energy, and including housing, more expensive. 
And I think that this is totally wrong.
    We know that with abundant clean energy we can also 
concentrate agriculture, leaving more of the Earth for other 
species. We can significantly reduce air pollution.
    There's a very--there's a lot of good news, there's a lot 
of--there's a very positive future. This idea that we need to 
go terrify school children in order to reduce air pollution, or 
the claims that somehow these reductions in air pollution 
occurred because we scared people or we engaged in this kind of 
alarmism, is just false. We did so because we actually believed 
in progress.
    So, that's the heart of the move against nuclear, and I see 
it in this climate discourse. It's inaccurate, it's 
exaggerated, and in many cases I think it's quite extreme. And 
a positive, pro-nuclear future, I think, points to ways in 
which we can achieve both human flourishing and environmental 
progress.
    Mr. Grothman. What do you think other countries like China 
and Russia think of our--?
    Mr. Shellenberger. Well, they're delighted. I mean, I would 
note that after Greta--the student activist Greta Thunberg 
suggested that economic growth was the problem, it was Vladimir 
Putin who stuck up for poor and developing countries and their 
right to develop.
    I mean, what is so disturbing to me is that so often these 
Malthusian efforts have sought to make energy and food scarcer 
and more expensive for poor and developing countries. Even if 
you don't care about people in those countries, that's a 
terrible strategy for American national security. We should be 
seeking to make friends and allies abroad, not seeking to make 
their energy and food supplies--not seeking to restrict their 
energy and food supplies.
    Mr. Grothman. Somebody told me I should ask you if you have 
heard of the word ``baizuo''? It's a Chinese word, b-a-i-z-u-o.
    Mr. Shellenberger. I have, though I can't remember what it 
means now.
    Mr. Grothman. Why don't you look it up?
    Mr. Shellenberger. OK.
    Mr. Grothman. B-a-i-z-u-o. You'll like it.
    Mr. Shellenberger. OK. Thank you.
    Mr. Grothman. Thanks so much for giving me so much time, 
Madam Chairman.
    Chairwoman Maloney. Thank you. Thank you so much. And Dr. 
Greenstone has indicated he would like to also respond.
    Dr. Greenstone?
    Mr. Greenstone. Thank you, Chairwoman.
    Look, I wanted to--I think Mr. Shellenberger's testimony 
has raised a series of important issues, and I thought it maybe 
would be worth trying to tackle them.
    Unfortunately, what I feel like has been going on in his 
testimony is the raising up of several bogeymen, which are 
really kind of giant distractions.
    The first is some side debate about whether or not climate 
change is existential. Let's just all agree humanity is not 
going to end tomorrow.
    Then there's this kind of very confusing set of arguments 
that he's making about renewables, that people say that that's 
the only way to confront climate change. I don't think you can 
say that. That solar panels are made by the Chinese, that 
they're Chinese-and Russia-built nuclear plants. None of that 
has really anything to do or is tangentially related to climate 
change.
    The third kind of bogeyman that he's raising, that he 
continues to raise, and I think is very distracting from the 
issue at hand is that climate change is undermining our mental 
health, so we should stop talking about it. I guess that's the 
implication.
    And then there's several more, but I guess another kind of 
bogeyman or distraction is that the world is getting richer and 
prospering and all kinds of other indicators are improving. 
That's all to be applauded. And, obviously, the implication 
that he wants us to take away from that is we should look the 
other way from climate change because that's not really 
relevant.
    So, I guess what I wanted to highlight that I find very 
troubling in his discussion is his raising the bogeymen 
distracts from what I see as the core issue of, I presume, why 
you convened this hearing, which is, one, climate change has 
very, very substantial costs. The paper that I released this 
week with my colleagues suggests that--I think alters 
fundamentally our understanding of the temperature risks for 
mortality. They suggest they are at least an order of magnitude 
larger than we had previously understood. That's just a fact.
    No. 2, the benefits of mitigation only in this small area 
of mortality risk, or one area, I don't want to say small, are 
$37 for every count. So, every time we can pull out of the 
atmosphere (inaudible), that's $37 of benefits.
    Then the last point I want to make is creating this false 
narrative of renewables versus nuclear. It's a strange way to 
approach the problem, I think, especially when the United 
States has had such a successful history in other energy and 
pollution areas of just leveling the playing field between 
energy sources.
    So, rather than having a committee or Mr. Shellenberger 
pick winners or losers, there's a very clear case for allowing 
all energy sources to compete equally, and that would certainly 
include penalizing the sources that are the cause of the 
climate damages that are real.
    So, I just wanted to add that. Thank you for the time.
    Mr. Shellenberger. Chairwoman, may I please respond to 
Professor Greenstone?
    Chairwoman Maloney. Can we continue with the members, and 
then at the end, you and Mr. Greenstone can discuss it back and 
forth as much as possible? The members are on--they have other 
meetings; we have a time slot for them.
    So, if we could let our members get through their 
questions, and at the end you and others can talk as much as 
you want. But I think we have to follow regular order. You will 
have as much time as you want after the members who have 
designated time slots. They have other meetings, other 
conflicts. So, I would like to get back to regular order.
    Congress Member Raskin, you are now recognized for your 
five minutes.
    Mr. Raskin. Madam Chair, thank you very much.
    I remember when critics of the climate change consensus in 
the scientific community used to deny the existence and reality 
of climate change. And I suppose it is big progress that they 
seem to have surrendered that position. I don't hear anybody 
anymore denying the existence of climate change, at least in an 
official setting like this, and I do think that that's 
progress.
    But the question now seems to have turned to, as Dr. 
Greenstone just said, either side issues, which I think are an 
irrelevant distraction from what we're focused on, or else 
basically emotional or psychological question of how alarmed we 
should be. And I suppose we can talk about that. But I would 
rather be focused on the actual scientific evidence we have of 
the processes that are underway.
    So, Dr. Shindell, I would like to ask you, is climate 
change getting worse? In other words, if we stay on the course 
we're on, are we headed for more and more of the kinds of 
disasters we have seen in terms of record drought and record 
forest fires and rising ocean levels and so on?
    Mr. Shindell. Yes, that is unequivocal from the evidence 
and the combination of theory and models, that not only are 
what we are seeing now likely to continue, but to worsen, and 
we will see additional effects like them. So, increase in the 
strongest hurricanes, more heat waves, droughts, fires, floods, 
et cetera.
    Mr. Raskin. But there seems--sometimes there's an effort, 
and I think we have seen it today, to detach actual events 
we're seeing, whether it's increasing extreme weather events, 
like hurricanes, or record droughts, record heat waves, and 
rising ocean levels, there's an effort to detach the things we 
actually see around us from the process of climate change.
    Is it, in fact, illegitimate for people to take notice of 
what's going on around us and to link that to the larger 
process underway?
    Mr. Shindell. Well, that's a great question, thank you. And 
I would say the answer is, unfortunately, it is not 
illegitimate, but it used to be. A lot of the misunderstanding, 
I think, comes from decades ago. The effects were not large 
enough to distinguish from natural variability. And now our 
science has advanced, and the effects are larger.
    So, not every single case, but many, many cases of extreme 
weather and climate-related disasters can be attributed to 
human activity.
    Mr. Raskin. OK. So, there's nothing at all irrational or 
illogical about people noticing these events and linking it to 
climate change?
    Mr. Shindell. No. I would say, in fact, it would be 
illogical not to take into account what we're seeing around us.
    Mr. Raskin. OK.
    I want to ask about air pollution. Let's assume that 
climate change were not occurring. Let's say, just take it off 
the table. Is air pollution getting worse in America or is it 
getting better?
    Mr. Shindell. No, air pollution has over the long-term been 
on a downward trend, but slow.
    Mr. Raskin. OK. But there are still serious health effects 
from air pollution as some of the doctors were suggesting, 
right?
    Mr. Shindell. That is unequivocal. We find around a quarter 
million Americans are dying early every year due to air 
pollution.
    Mr. Raskin. OK. Despite our best efforts and despite the 
progress that we have made so far. And of course, this 
administration is doing everything it can to undo a lot of the 
progress by reversing dozens of air pollution regulations that 
we have put in place at the EPA.
    Is there something illogical or strange about trying to 
make progress on climate change with the same solutions we're 
using to try to reduce air pollution?
    Mr. Shindell. Well, no. And, in fact, I think what we need 
to recognize is that the progress we have made in air pollution 
did not come about just by chance because time went on, but by 
a lot of hard work by the EPA putting into place effective 
regulations.
    And what their analysis shows now is that it's actually 
less expensive to deal with air pollution and climate change as 
a unified problem, that we do not want to separate these. We 
find the most cost-effective solutions by tackling these 
simultaneously.
    Mr. Raskin. OK. You know, we live in an age of a lot of 
disinformation and propaganda and mythology. I mean, you think 
about COVID-19, this terrible disease which has now afflicted 
more than 4 million Americans and killed 156,000 Americans. 
Still, we have heard and been invited to believe by high 
government sources that children are basically immune to the 
disease, which they're not, that COVID-19 is a hoax, which 
obviously it's not, that it can be cured with 
hydroxychloroquine when the medical authorities and the FDA say 
that that's not true, and that ingesting disinfectant can be a 
cure to the disease, which it definitely isn't.
    What about the propaganda and disinformation about climate 
change, has that been a hindrance to our ability to address the 
problem in a bipartisan or multipartisan or nonpartisan way?
    Chairwoman Maloney. The gentleman's time has expired.
    You may answer his question.
    Mr. Shindell. Thank you, Chairwoman.
    I would say that, yes, that has been a distraction, that it 
has made it harder to achieve progress, it has made it harder 
to put the actual cost of using fossil fuels into our economic 
system, what my colleague Dr. Greenstone has been discussing, 
the social cost, namely that we should level the playing field 
and we should account for the real cost of burning fossil fuels 
that cause both climate change and air pollution, and then we 
can let the market decide.
    It's already shifting in the direction we want, but it 
would be shifting faster without the misinformation and the 
failure to account for the real cost of using fossil fuels.
    Mr. Raskin. Thank you.
    Chairwoman Maloney. Thank you. The gentleman's time has 
expired.
    Congress Member Palmer, you are now recognized for five 
minutes. Congress Member Palmer?
    Mr. Palmer. Thank you, Madam Chairman.
    First of all, for the record, I agree that the climate is 
changing, and I believe human activity contributes to it, but 
that is not the leading factor for climate change.
    I asked three scientists who appeared before the Select 
Committee on the Climate Crisis, including one scientist who is 
the lead author and lead editor of the International Panel on 
Climate Change report, if we completely eliminated all CO2 
emissions, went to absolute zero in the United States, would it 
stop climate change? And their unanimous answer was no.
    I asked, if we completely eliminated all CO2 emissions 
worldwide, went to absolute zero, would it stop climate change? 
And their unanimous answer is no.
    That does not mean that we shouldn't do all that we can to 
mitigate and reduce CO2 emissions. But I think that Dr. 
Shellenberger is right on point in that the way to do that is 
to utilize the technology that we have, particularly in nuclear 
energy and natural gas, but also be constantly developing new 
technologies, such as what we're seeing coming out of MIT in 
terms of capturing carbon from the air and converting it for 
other uses, and methane. And we can actually do more to reduce 
climate--the temperature in the short-term by capturing methane 
than we can carbon, CO2.
    So, with that said, I want to address some of these issues 
about health. Everybody here seems to be totally focused on 
human health.
    Dr. Shindell, I think you may have been part of a Duke 
University report that said that heat is the leading weather-
related killer. Is that correct?
    Mr. Shindell. That is correct.
    Mr. Palmer. Well, that's interesting, because a subsequent 
publication or another publication from The Lancet said that 
cold weather, even moderate cold, kills 20 times more people 
than heat. Which I don't know where you got your information 
that is that cold--even the CDC says that cold is a greater 
threat to human life than heat, even moderate cold. So, I just 
wanted to point that out.
    And for Dr. Salas, you made a statement to Time magazine, 
you said, ``With every degree of warming, we are committing a 
child born today to a future where their health and well-being 
will be increasingly threatened.'' Were you talking about 
American children, or was that a global statement?
    Dr. Salas. So, that was based off the 2019 Lancet Countdown 
report. It is published in The Lancet, which is one of the 
world's most prestigious medical journals. And it was----
    Mr. Palmer. I just asked a simple ``yes'' or ``no.''
    Dr. Salas. Well, it was making a global statement, which 
applies to----
    Mr. Palmer. OK. Thank you.
    Dr. Salas. We're part of the globe.
    Mr. Palmer. All right.
    Dr. Salas. Yes.
    Mr. Palmer. Yep. Well, thank you. That's what I wanted to 
know.
    Because I also want to know if you believe that it's in our 
best interests to reduce economic activity in order to reduce 
pollution. Because you guys keep conflating air quality with 
climate change. Those are two separate things.
    But do agree that we need to reduce economic activity to 
reduce the amount of pollution and also to impact climate 
change to improve human health? That's a ``yes'' or ``no.''
    Dr. Salas. Well, I would like to say that it's interesting, 
in regard to the discussion around pollution, because, yes, 
there have been----
    Mr. Palmer. No, no. I----
    Dr. Salas [continuing]. changes to pollution----
    Mr. Palmer. I'm just asking a simple question. Do you agree 
that we're better off reducing economic activity to protect 
human health, in regard to reducing pollution?
    Dr. Salas. I don't think----
    Mr. Palmer. Is that----
    Dr. Salas. It's not an either/or question.
    Mr. Palmer. Well, apparently it is, because that's what 
Greta Thunberg was advocating. It's also what a report from the 
National Center for Biotechnology Information was advocating, 
literally, that ``evidence supports the overall hypothesis that 
a strong economy is associated with elevated air pollution 
levels and, in particular, mobile-source pollutants. Similarly, 
a weak economy is associated with lower air pollution levels'' 
and supposedly improved human health.
    So, I just think that we go off the rails when we get on 
these topics, and it's political. I mean, this statement that 
people were advocating hydroxychloroquine as a cure is a 
misrepresentation. Hydroxychloroquine was offered as a 
therapeutic to help people recover more quickly. It doesn't 
cure any--it doesn't cure COVID-19.
    So, it just drives me nuts that I listen to people like you 
come before the committee and it's all political, it's all an 
agenda, when there are ways to improve the human condition.
    If we implement what is being proposed through the Green 
New Deal, we're talking about adding 78 million more people who 
will go hungry. That's worldwide, that's global. We're talking 
about denying people access to basic necessities that we take 
for granted in this country, like being able to have a 
refrigerator. And we think that we can meet those needs with 
renewables that, with what we could provide right now, would 
probably power a big-screen TV for half a day.
    I mean, Dr. Shellenberger, if you would like to comment on 
that, I've got a little bit of time left.
    Madam Chairman, I can't see the timer.
    Dr. Shellenberger?
    Chairwoman Maloney. It's expired. Your time has expired. 
She may answer your question.
    Mr. Palmer. Well, it was directed to Dr. Shellenberger.
    Chairwoman Maloney. OK.
    Mr. Shellenberger. Yes, I mean, I would just--I think that 
the concern raised about misinformation comes from folks that 
are also conflating extreme weather and disasters.
    So, IPCC and every dictionary I've seen defines disasters 
as deaths from extreme weather and property damage. Deaths from 
natural disasters are going down around the world. They've been 
going down 90 percent. It's just wonderful. We should celebrate 
it. Fewer of our loved ones are being swept away in floods and 
hurricanes. All of the increase in property damage is due to 
the fact that we've become wealthier.
    So, the idea that people can see climate change in natural 
disasters is completely fallacious. That's not science. That's 
misinformation. Yes, we are able to detect in some extreme 
weather events a climate signal, but it takes very careful 
attribution studies.
    This effort to mislead people--and, you know, this 
citation, oh, it's hot in Washington, DC, I see both sides of 
the aisle. Some people say, ``Oh, it snowed, therefore there's 
no global warming.'' Other people say, ``It's hot out. That's 
proof of climate change.'' That's all fallacious, completely 
pseudoscientific, should just be considered--that should not be 
done. I mean, it's just grossly misleading.
    And, somehow, this idea that raising the concern that 50 
percent of human beings on Earth say that they think climate 
change can make humans extinct, the idea that that's not a 
concern or that the rising levels of anxiety among teenagers 
should not be a concern, I'm sorry, but if you're a parent, our 
kids have enough stress in their lives from social media and 
the status competitions they see every day. They don't need to 
be told that they may not live long enough to have children. I 
think that's unconscionable.
    Mr. Palmer. Thank you, Madam Chairman. And, at the end, I 
may want to ask for another round. I yield back.
    Chairwoman Maloney. OK. Thank you.
    And I now recognize Congresswoman Wasserman Schultz.
    And I will turn the gavel over to Robin Kelly, with my 
thanks. Thank you.
    Ms. Wasserman Schultz. Thank you, Madam Chair.
    And I thank the witnesses for their time.
    What I think has been telling about this hearing so far is 
that our friends on the other side of the aisle, when presented 
with hard data and science that doesn't line up with their 
world view or their politics, deems the conclusions of that 
hard data and science to be political.
    The facts are the facts, and the facts include that rising 
global temperatures are making natural disasters even more 
frequent and severe. And that, of course, does impact health 
and cause damage to critical infrastructure that supports human 
life.
    I live in ground zero, my district includes ground zero, 
when it comes to the impact of the sea-level rise that is 
resulting from global warming and the subsequent flooding that 
occurs even when it's sunny in many coastal neighborhoods that 
I represent. Dealing with major storms is a way of life for 
Floridians, and it seems that things are getting much worse in 
my state thanks to this climate crisis.
    According to the U.S. Geological Survey, and I quote, 
``More heat in the atmosphere and warmer ocean surface 
temperatures can lead to increased wind speeds and tropical 
storms. Rising sea levels expose higher locations not usually 
subjected to the power of the sea and to the erosive forces of 
waves and currents.''
    Today, we've heard new research that shows the alarming 
numbers of deaths that will occur if we fail to address climate 
change.
    Dr. Greenstone, I wanted to ask you a question about your 
study on extreme heat, whether that includes the number of 
deaths that will occur due to more severe natural disasters as 
a result of climate change.
    Mr. Greenstone. Thank you for the question, Congresswoman.
    No, the study only covers temperature-related mortality, 
and so everything related to natural disasters would be 
additive.
    Ms. Wasserman Schultz. OK.
    And, Dr. Shindell, same question, please.
    Mr. Shindell. Yes, our analysis covers those effects of air 
pollution that we know a great deal about. There are additional 
effects, such as impacting the brain and cognitive function and 
such, that would be additive, and we did not include. And for 
climate, as with Dr. Greenstone, only heat. So it is, again, a 
conservative estimate. It's not accounting for everything.
    Ms. Wasserman Schultz. Thank you.
    So, it seems clear that the alarming figures in your 
research don't even include the impact of natural disasters, 
which are becoming more frequent and extreme. So, the responses 
that I just received said that adding natural disasters and 
their impact that result from the warming climate and sea-level 
rise are going to make the situation even worse.
    Dr. Greenstone, your work at the Climate Impact Lab does 
include modeling of potential losses from coastal storms under 
a range of climate change scenarios. Can you give us an 
overview of the risks to coastal infrastructure if the 
frequency and severity of storms continues at its current rate?
    You know, my state of Florida has so many coastal 
communities that are already being affected by rising sea 
levels and increased storm events, and I'm particularly 
concerned about the increasing reach and intensity of storm 
surge. We just had a storm come through just over the last 
couple of days that caused damage as well. And that's often--
the storm surge is often the true killer during storm events in 
Florida.
    Mr. Greenstone. Yes. Thank you, Congresswoman.
    So, that is an area that we are actively working on. And 
the initial indications are that this will be an important 
extra factor that would accompany the mortality risk for 
temperature that I described toward developing a full estimate 
of the cost of climate change. And I think we expect to have 
results that we would be happy to share with you and others 
later in the fall.
    Ms. Wasserman Schultz. Thank you. That would be incredibly 
helpful.
    And, Dr. Salas, can you explain for us how you believe 
extreme weather will impact healthcare infrastructure, power 
grids, and supply chains, especially in coastal communities?
    I'm thinking especially of vulnerable populations like 
nursing home communities, of which there are many in my state, 
that have suffered greatly during past storm events because of 
a combination of power outages as well as mismanagement.
    Dr. Salas. Thank you. And you bring up a wonderful point. 
And this is something that isn't even taken into our current 
calculations, and that's the fact that we know that, as extreme 
heat worsens, there's increased risk for power outages, which 
is cited by the National Climate Assessment put out by this 
administration. We know that extreme weather, as it's 
intensified, which is also in--the National Climate Assessment 
``Human Health'' chapter outlines that it's--we know that 
that's going to cause infrastructure damage.
    I mean, as a doctor, I need a building with which to treat 
patients in, and I need supplies. And we know that it's 
damaging and disrupting supply chains. We've already seen the 
fragility of our supply chains now with the COVID-19 pandemic 
in regard to personal protective equipment and other items. So, 
there's a suite of effects that cause patients to not be able 
to access care exactly when they need it.
    Ms. Wasserman Schultz. Yes. Your answers reinforce why I 
believe we need to do everything we can to put a price on 
carbon, which has been bipartisan in years past, arrest 
emissions, and transition to clean energy now.
    Thank you, Madam Chair. I yield back the rest of my time. 
Thank you.
    Ms. Kelly.
    [Presiding.] Thank you.
    We will now hear from the gentlewoman from West Virginia, 
Congresswoman Miller.
    Mrs. Miller. Thank you, Madam Chair and Ranking Member 
Comer.
    And thanks to you all of our witnesses for being here 
today.
    Mr. Shellenberger, thank you for being here today, and 
thank you for testifying before us for the Select Committee on 
Climate Crisis. It's my hope that my colleagues here today will 
treat you with more civility and manners and respect than I 
feel you got last week. I don't think there's any room for 
arrogance in our discussions, because we're here to solve 
problems.
    It's my opinion that, if we look back through time, our 
climate has always been changing. My colleagues have heard me 
talk before about the devastating impact bad policies and even 
overregulation have had on West Virginia--the closure of the 
coal mines, which decimated our communities and caused so many 
people to lose their jobs and created a terrible hopelessness, 
which then led to an opioid epidemic.
    Even further, our state implemented a renewable change, an 
alternative energy portfolio that skyrocketed energy costs, 
which left many people choosing between keeping their lights on 
and paying for their prescriptions or their groceries.
    We must not miss the forest for a tree. Bad policies can 
affect our citizens' health, both mentally and physically.
    Mr. Shellenberger, as you know, our innovations in the 
natural gas space have led to American energy independence and 
helped lower our climate emissions. American natural gas is not 
only cleaner than that of other countries, it helps improve our 
national security.
    Mr. Shellenberger, can you explain how economic growth can 
lower carbon emissions?
    Mr. Shellenberger. Yes, thank you, Congresswoman. I 
appreciate the question, and I appreciate your remarks about 
last week. It was quite a startling experience, and it's nice 
to be able to have a chance to respond today.
    Yes, I mean, I think--you know, Dr. Shindell said earlier 
that the cause of pollution reductions in the past have been 
due to regulations. That's an overly broad claim. In fact, what 
I've pointed out is that Obama's proposed Clean Power Plan 
would have reduced carbon emissions 32 percent by 2030; well, 
carbon emissions declined 34 percent by 2019.
    Now, I would note that the Federal Government did play a 
positive role here, but it wasn't through--it wasn't primarily 
through regulation. It was by supporting the natural gas 
industry in developing the horizontal drilling and fracking 
technologies to allow the opening up of shale for oil and gas 
drilling, which has made the United States a global superpower 
in terms of energy.
    That was fundamentally--and that was also, by the way, a 
consequence of America's commitment to underground property 
rights, which is something that doesn't really exist in other 
countries and which allowed for the fracking boom.
    I spoke out for--I'm sometimes mischaracterized as solely 
in favor of nuclear. In fact, I defended the fracking 
revolution as it was happening 10 years ago against people that 
were opposed to it, including supposedly for climate change 
reasons.
    So, we saw this remarkable success. In fact, that's the 
reason why there is much more reason for optimism in terms of 
declining carbon emissions globally. Offshore natural gas 
exploration has significantly lowered the price of natural gas.
    And I would acknowledge it's had a negative--it's had a 
mixed consequence, obviously, for your communities in West 
Virginia, because folks in the coal mining communities have 
suffered. In my view, that means that we need to do more to 
export America's natural gas, which is both good for workers in 
places like West Virginia and also good for air pollution 
abroad and good for climate change.
    Clearly, the great success story over the last several 
decades is this abundance of natural gas. It's really the main 
event. It's what is almost certainly going to allow carbon 
emissions globally to peak and decline sometime in the next 
decade or so.
    I mean, the fact--yes, carbon emissions are continuing to 
go up, but they've peaked and have been declining in wealthy 
countries. They peaked in Britain, France, and Germany in the 
mid-1970's, by the way. So, poor countries, developing 
countries will follow what's been happening in developed 
economies.We see the same pattern everywhere: There is an 
increase in air pollution as countries industrialize and 
develop, but then, as they switch to cleaner fuels, including 
natural gas, they go down.
    So, that's the spirit of my remarks, is it's just to say, 
we should ground ourselves in this incredible success we've had 
in reducing pollution through a variety of mechanisms, rather 
than suggesting that things have gotten worse or that somehow 
things are going to get worse when it comes to natural 
disasters.
    I just would like to just say one thing to object to 
Congresswoman Wasserman Schultz. In her remarks, she conflated 
natural disasters and extreme weather events. A hurricane, even 
one with faster wind speeds, that never touches ground is not a 
disaster. It's only a disaster if it kills people or causes 
property damage. And deaths from natural disasters, including 
in the Unites States, are going down. And property damage, to 
the extent it's risen, it's risen because we're wealthier.
    Ms. Kelly. Thank you. Your time----
    Mr. Shellenberger. So, I just think, if we're going to be 
committed to the science, let's be scientifically accurate 
about disasters and extreme weather events.
    Mrs. Miller. Do I still have time?
    Ms. Kelly. No. Your time has now expired.
    Mrs. Miller. OK. Thank you.
    Mr. Shellenberger. Thank you for the time, Congresswoman.
    Ms. Kelly. I'd now like to call on the gentleman from 
Maryland, Congressman Sarbanes.
    Mr. Sarbanes. Thank you, Madam Chair. Can you hear me?
    Ms. Kelly. Yes.
    Mr. Sarbanes. Terrific.
    I want to thank the panel.
    The members of this committee, obviously we work in 
Washington, so we all know how hot it gets here in the summer. 
And climate change is increasing that trend. Baltimore just had 
25 days in July that were over 90 degrees, which we haven't 
seen before.
    According to a study conducted by a researcher at Portland 
State University, summer temperatures fall unequally on either 
side of the Nation's racial and economic divide. So, I wanted 
to talk a little bit about that today.
    For example, in Washington, the summers are significantly 
hotter in neighborhoods with lower incomes and higher minority 
populations, and we see a similar trend in other cities. In 
Baltimore, researchers logged a difference of more than 10 
degrees Fahrenheit on the same day between poorer and more 
affluent parts of the city.
    And we know what this is connected to. With fewer trees and 
parks, denser housing, less air conditioning, poor 
neighborhoods are literally feeling the heat more than their 
wealthier counterparts.
    Dr. Thakur, can you briefly explain the health problems 
that can arise from regular exposure to hot summer 
temperatures? And would you say that lower-income communities 
in general appear to be more vulnerable to some of these 
dangers, and, if so, could you explain why?
    Dr. Thakur. Thank you for your question. You highlight a 
really important disparity issue and have nicely described the 
heat-island effect that we see in urban communities.
    It's important to note that African American and Latinx 
communities are more likely to live in poverty, live near large 
roadways and highways, and live in poor housing quality. 
They're also more likely to have less landscaping and trees and 
more likely to have high concrete areas that absorb heat.
    And because of these social conditions, they are also more 
likely to have chronic health conditions such as respiratory 
and cardiovascular disease. And climate change, especially 
extreme heat, worsens these social conditions. And for those 
with chronic health conditions, they can exacerbate their 
disease.
    So, I'll provide an example with one of my patients, who's 
a Latino woman with diabetes and asthma, and she cleans homes 
for a living. And when there are extreme heat days in San 
Francisco, she can't effectively do her labor-intensive job. 
She'll have to stop every short while to use her rescue inhaler 
in order to avoid her breathing from getting worse.
    She also risks getting dehydrated on her job during those 
extreme heat days, which worsens her diabetes.
    I also want to note that, when there are fires due to dryer 
land and hotter air, her asthma becomes so severe that she 
cannot work and therefore cannot get income.
    So, this is just a nice example to illustrate how 
communities that are disproportionately burdened with the 
effects of climate change not only see worse health conditions 
but also see worse economic health--economic results from it.
    Mr. Sarbanes. Thanks very much. And we have a severe 
problem with asthma in Baltimore. I'm very familiar with this 
and some of the effects that you're describing.
    We're all trying to do what we can on this front. It may be 
a little thing, but I think it's important: I was proud to 
sponsor, with a number of my colleagues, the TREES Act, which 
would plant trees in low-income communities and increase the 
tree canopy in areas that have historically lacked green space.
    And increasing that green space would not only help with 
this urban heat-island effect that you're describing but could 
also help build resiliency by reducing storm water runoff, 
lowering energy costs for residents, and reducing air 
pollution, among other benefits that it could have.
    Can you speak just for a moment--we've got about 30 
seconds--why you think, if you do, that it's important for to 
us prioritize these kinds of investments in vulnerable 
communities to promote greener and a more equitable future for 
all their residents?
    Dr. Thakur. Yes. Of course.
    So, green space, as you highlight, improves a lot of 
different circumstances of the neighborhood. In addition to 
what you've already highlighted in increasing tree canopy, 
which helps reduce the heat-island effect, and improving air 
quality in the area, there are several studies that also show 
that it also improves mental health.
    I think, you know, in communities that are 
disproportionately burdened by social stress, having green 
space around can help provide that resilience to the community 
through mental health benefits in addition to physical health 
benefits.
    Mr. Sarbanes. Thank you very much.
    I yield back my time, Madam Chair.
    Ms. Kelly. Now we will hear from the gentleman from 
Louisiana, Congressman Higgins.
    Mr. Higgins. Thank you, Madam Chairwoman.
    And, also, I'd like to point out and thank the majority 
chairwoman, who has left the meeting, for being very gracious 
regarding recognizing time. In several cases, she's recognized 
time expired for members on both sides of the aisle and has 
allowed the final question to be answered. I thank her for that 
spirit.
    Dr. Salas, you had spoken of an elderly gentleman that has 
come under your care in San Francisco, I believe, that had no 
air conditioning. Do you recall making that statement, ma'am?
    Dr. Salas. It was in Boston, but yes.
    Mr. Higgins. It was in Boston. OK. I apologize.
    Dr. Salas. That's OK.
    Mr. Higgins. Would you be so kind, madam, as to allow my 
office to reach out to you whereby we can identify that 
gentleman? And through a Christian charitable organization, 
we'll get him an AC unit and a couple of fans.
    If you could perhaps allow us to reach out to your office, 
we'll address that particular problem, and, at least, by the 
end of this committee hearing today, we'll have solved, in some 
small portion, the climate challenge for one elderly American. 
If you would allow that, I would be grateful.
    Mr. Shellenberger, if you're there, sir, I'd like you to 
address, please--I'm going to give you the floor here. Please 
talk to us about nation-states across the world that have major 
impact on the climate of the Earth and CO2 emissions, including 
Russia, China, and India. And please correlate the trends of 
Russia, China, and India versus the United States, if you don't 
mind, sir.
    Mr. Shellenberger. Sure. I'd be happy to, Congressman, and 
thank you for the question.
    I know that there's been an effort, I think, over the last 
several decades to deal with climate change through an 
international treaty and, I think, some sense of competition 
between countries.
    I, myself, am uncomfortable with that, for a variety of 
reasons. The most important one is just the one I mentioned 
before, which is that, really, all countries--almost all 
countries see their air pollution, including carbon emissions, 
rise with industrialization, and then, as they move toward 
natural gas and nuclear and improve the cleanliness of their 
coal burning, they see their emissions peak and decline. And 
what I'm most troubled by have been efforts to basically try to 
deny countries economic development.
    Right now, the World Bank, for example, which is funded by 
the United States and other Western nations, has stopped 
funding large hydroelectric dams and nuclear power plants, even 
though the former is one of the main ways that poor countries 
lift themselves out of poverty and nuclear is the only 
scalable, zero-carbon alternative to fossil fuels.
    So, for me, I don't spend much time trying to, kind of, 
point out that other countries are doing worse than us. I know 
that's something that a lot of people point out. My view is 
that China will see its carbon emissions peak and decline just 
in the same way that the United States and Europe did before 
that.
    And I think we have--the big--much--if we're looking at the 
international arena, I think a much bigger concern is the 
overdependence on things like imported solar panels from China, 
the low-quality jobs that they create here compared to the 
higher-quality manufacturing jobs in China, and then just the 
complete--basically what I view as the complete abdication of 
U.S. responsibility for nuclear energy, which--for 60 years, 
the United States has been the leader of nuclear energy, and 
we're in a situation now where basically every branch of--you 
know, the White House, the Congress, the so-called nuclear 
energy industry is basically ceding the future of nuclear 
energy to the Chinese and Russians. I think that's a serious 
problem----
    Mr. Higgins. Thank you for that clarification.
    Mr. Shellenberger [continuing]. related to climate change 
but goes beyond it.
    Mr. Higgins. I join you in support for expanded gradual 
trends toward very ecologically sound emerging technologies in 
oil and gas industry and nuclear.
    And in my closing seconds, I'd like you to please address 
the correlation between economic prosperity and stability and 
how it relates to cleaner air and water and a reduction of 
pollutants in the planet, please.
    Mr. Shellenberger. Sure. I mean, economic growth and air 
pollution reductions are strongly correlated. After nations 
achieve a certain level of industrialization, it's a very clear 
relationship.
    You need a heavily capitalized oil and gas industry to be 
able to make the transition away from coal, which is what's 
been occurring in the United States; as well as economic 
development is the main factor in making sure that deaths from 
natural disasters, that the global disease burden continues to 
decline.
    So, I think the focus on making sure that we protect 
continued economic growth, which requires cheap energy, I think 
that has been and should remain our highest priority.
    Ms. Kelly. The member's time----
    Mr. Higgins. Thank you, sir, for the answer.
    Madam Chair, my time has expired. I thank you for your 
graciousness, and I yield.
    Ms. Kelly. Thank you.
    The chair now recognizes herself for five minutes.
    Dr. Shindell, your testimony today is astounding. If we 
address climate change and keep global warning below 2 degrees 
Celsius, that would save 4.5 million American lives over the 
next 50 years. If we don't take action, then 4.5 million 
Americans will die an unnecessary premature death.
    Do I have that right, Dr. Shindell?
    Mr. Shindell. Yes, that is correct.
    Ms. Kelly. So, that is almost 100,000 deaths per year that 
could be prevented. That's a huge number. That's nearly three 
times the number of lives we lose in car accidents every year. 
It's twice the number of deaths caused by opioids in the past 
few years. And it's even more than the number of Americans we 
lose to diabetes each year.
    Dr. Shindell, are you telling me that we have the chance to 
make a change now that would save more lives than eliminating 
diabetes?
    Mr. Shindell. Definitely. And we tend to not recognize the 
true toll of air pollution, which is roughly a quarter-million 
Americans a year. And we have a chance to cut that nearly in 
half within a decade.
    Ms. Kelly. The other thing I wanted to just talk about a 
little bit, in my district--I represent the Chicagoland area. 
I'm urban, suburban, and rural. And in the south part, 
southeast part of my Chicago district, we had to deal with the 
issue of pet-coke. And we actually had to work with the 
corporation or fight a corporation because it was all over that 
part of my district. People had it coming in through their 
windows, on their food when they ate, depending on, you know, 
how the wind blew. And they felt like they have more asthma in 
that area and other illnesses.
    And it's just always interesting to me how in communities 
of color and/or in low-income communities that's where these 
problems seem to find themselves more. Can you comment on that?
    Mr. Shindell. That is, unfortunately, all too real across 
the country, not just in your district. But poorer people can 
afford to live only in the more polluted areas and have less 
political clout to keep the, kind of, polluting industries away 
from themselves.
    So, we find the burden is especially large on poor and 
people of color. It's also especially large on children and the 
elderly, who are more susceptible.
    The 4.5 million is just the number of deaths, but there's a 
huge toll from morbidity from nonfatal illnesses, like children 
having bronchitis and asthma.
    Ms. Kelly. And then, when you think about, if people don't 
die, just the healthcare cost to keep people alive is 
tremendous.
    Mr. Shindell. That's right. We evaluated that the benefits 
to American business would be in the billions, more than a 
billion a year, just from avoided medical spending and 
increased worker productivity. So, these are tremendous costs 
which don't show up on the books now but really should.
    Ms. Kelly. Then the other thought was, when we talk about 
people losing their lives, let's talk about young people. It's 
going to be young children losing their lives too. It's not 
necessarily that you're growing up into your adult years, but 
this affects our young children also.
    Mr. Shindell. Yes, that's----
    Ms. Kelly. Or our teens.
    Mr. Shindell. No, that's very true. And one of the things 
to keep in mind about both air pollution and climate change is 
that they affect everybody. You can't simply avoid it; you have 
to go outside. You have to--you can't live in an area that's 
not subject to one or both of these problems.
    So, they really--they're kind of a common denominator. They 
affect everybody, rich and poor, which is why we should really 
all be working together to reduce this problem.
    Ms. Kelly. I totally agree. Thank you, Dr. Shindell.
    I will yield back the balance of my time and now will call 
on the Congressman from Tennessee, Congressman Green.
    Mr. Green. OK. Can everybody hear me now?
    Ms. Kelly. Yes.
    Mr. Green. All right. Thanks.
    Thank you, Chairwoman, Ranking Member, and our witnesses.
    We have a responsibility to care for the environment. As 
Americans, we're blessed with a beautiful Nation, abundant 
natural resources. I am an avid fly fisherman. I want my 
mountain streams clear, and I do not want my trout growing in--
glowing in those streams.
    There's an obvious increase in CO2, and with no detected 
levels this high in history, we really don't know what the 
outcome's going to be. We know aerial fertilization happens, 
biomass is increasing, but is it enough? Many scientists' 
mathematical models suggest it will not be enough, but we 
simply don't know.
    I want to add, too, that the ridiculous claims made by 
climate alarmists push reasonable people away from this debate. 
For example, an ice-free Arctic was supposed to happen in 2013 
and 2018. Italy was supposed to be underwater in 2005 and 2011. 
Our colleague has predicted the end of the world is now only 11 
years away. In fact, I can list 41 predictions which have all 
failed to materialize.
    Even today, we've heard this horrific story of heatstroke 
and death. I, too, am an emergency-medicine-trained physician 
who trained at the number-one emergency medicine residency 
program in the country all three years I was in residency. I'm 
also an ex-Army Special Operations physician who served with 
Delta Force and SEAL Team Six, providing healthcare in Kuwait, 
Iraq, and Afghanistan, where the temperatures, I might note, 
were far more extreme than anywhere in the United States.
    But here are some real facts, to use Congresswoman 
Wasserman's word. The average number of U.S. heat deaths was 
138 over the last 33 years. That number has fallen to 103 if 
you look in the just the last 10 years. And, in 2019, only 63 
people died of heat injury.
    The number of heat deaths has plummeted over the last 30 
years while temperatures have fluctuated up and down but 
generally risen. There is no correlation between heat deaths 
and rising atmospheric temperatures. Suggesting that heat 
injuries is some kind of emergent crisis that we've got to get 
a handle on is about as bad as saying the world's going to end 
in 11 years.
    A piece of advice for my clinician colleagues here today: 
If air pollution is decreasing, which all the witnesses today 
have said it is, and respiratory disease and death is 
increasing, would you please look for another cause? Please? If 
air pollution's going down and deaths are going up, look 
somewhere else. We need to call these ridiculous assertions 
what they are, so credibility for what is really happening can 
be addressed.
    The fact is you don't have to support socialism to support 
the environment. Make no mistake, the Green New Deal is 
socialism. In fact, history shows that socialism has caused the 
environment far greater harm, whereas free markets improve the 
environment. I could cite tons of examples.
    Climate alarmism----
    Ms. Kelly. Mr. Green, can you please turn on your camera? 
Sorry to interrupt you, but we can't see you.
    Mr. Green. Oh, no. OK. Should I start over, ma'am?
    Ms. Kelly. No, we could hear you. We just couldn't----
    Mr. Green. OK. OK. I don't know what happened there. I 
was--I thought I was on, but OK.
    Climate alarmism supports political agendas and distracts 
from the real issues. It also leads to regulations that swing 
the pendulum far from reality and constrain our people and 
their innovations which feed the world and, importantly, 
actually clean the world.
    For example, when two raindrops come together, it's not a 
river. The Federal Government should not control that piece of 
land where two raindrops come together. In fact, government 
closest to the people is best for managing the environment. Who 
better to care for the land than those who stand on it?
    I also want to add, we've crossed a threshold in this 
country. Demand for climate-friendly products/services creates 
pressures on industry and the marketplace, which is far more 
powerful and far safer than a socialist, centralized government 
control.
    One last point. Oftentimes, the solutions--the cure is far 
worse. Huge wind turbines are bird blenders. And the batteries 
in electric cars have caused toxic substances that will be a 
problem for years to come. Yes, CO2 is rising and humans are 
contributing, but let's get this right. Let's not act to make 
ourselves feel good. Let's not act to make climate alarmism a 
club for political opponents. Let's act wisely.
    One quick question for Mr. Shellenberger. Can you describe 
a little more in detail your assertions that mental health 
injury is increasing and what that means for health, as 
alarmism scares these children in some cases to death? Your 
thoughts?
    Ms. Kelly. The member's time has expired, but the witness 
can answer the question.
    Mr. Shellenberger. Yes, I'll be brief.
    I mean, I think that even in the six months since I 
submitted my book to my publisher the evidence has grown very 
significantly. We now have--you know, like I mentioned, 50 
percent of people around the world think that climate change 
will make people extinct. We see that 57 percent of Americans 
say they're very concerned about climate change. One out of 
five British children have nightmares about climate change.
    I think the big factor is social media is driving rising 
anxiety and depression, but, clearly, these fears of climate 
apocalypse are having a significant impact. And it's just--it's 
really unfair to young people, in particular.
    Mr. Green. Thank you.
    Ms. Kelly. Now I'd like to call on the gentlewoman from 
Massachusetts, Congresswoman Pressley.
    Ms. Pressley. Thank you, Madam Chair.
    And thank you to our distinguished panelists for joining us 
today.
    The global climate crisis does pose an existential threat 
to our planet, and we are already experiencing it in dangerous 
and destructive impacts. Look no further than my own district, 
the Massachusetts Seventh, to see how climate change is 
threatening the public health, especially in low-income 
communities of color and immigrant communities.
    Communities like Roxbury, Chelsea, and Chinatown are 
enduring harsh heat waves that are hotter, last longer, and 
occur more frequently. At the same time, these residents too 
often lack air conditioning or tree cover. Historic redlining 
has placed these communities in high-pollution zones, and the 
toxins in the air, combined with higher temperatures, 
significantly worsen health outcomes.
    Today's hearing demonstrates that climate change and public 
health, they are inextricably linked. The climate crisis is 
exacerbating our Black maternal and infant mortality crisis. It 
is causing higher rates of premature deliveries, stillbirths, 
and low birth weights and is disproportionately threatening 
Black and Latinx pregnant people, who are more likely to work 
outdoors and less likely to have access to quality healthcare.
    Maternal health workers, midwives, and doulas in my 
district are working hard to address this problem, but they 
cannot do it alone. And it is our job in Congress to confront 
these challenges.
    Dr. Salas, according to HHS's Office of Minority Health, 
Black babies are 3.8 times more likely to die from 
complications related to low birth weight as compared to White 
babies. How does climate change contribute to these devastating 
statistics?
    Dr. Salas. Thank you, Congresswoman Pressley. Good to 
connect with a fellow Massachusetts individual.
    So, you bring up a wonderful point, and that's the fact 
that the very people who are suffering the most from the 
climate crisis are those that are contributing the least. And 
it falls disproportionately on the very groups that you 
outlined. And that really aligns with what my clinical 
experience has been in emergency departments. And we've seen it 
yet again now with the COVID-19 pandemic and certain racial 
minority groups disproportionately bearing the brunt.
    So, I thank you for highlighting that. And I think you also 
highlight that there are solutions that are available. We just 
need the political will to implement them.
    Ms. Pressley. Well, I won't get into that.
    So, I'm going to try to merge two questions here. Can you 
speak to what ways the current pandemic complicates access to 
healthcare for those who are pregnant? And, also, do you agree 
that the fight for our healthcare justice, environmental 
justice, and racial justice must be tied?
    Dr. Salas. Agreed. Like I said in my opening statements, 
the climate crisis is a meta problem and a threat multiplier, 
and so all of these things are interconnected. So, as we think 
about how to approach solutions, we have to think in a 
multidisciplinary way that allows us to use our ingenuity to be 
able to bring all of these diverse sectors together to really 
approach these problems. Because oftentimes one intervention 
has multiple benefits and especially in these very groups that 
you're discussing.
    Ms. Pressley. And if Members of this body and this 
administration continue to ignore the science of climate 
change, what is at stake for mental and physical health of 
frontline communities in particular?
    Dr. Salas. So, I am enormously concerned about what the 
future will look like for those populations based off what I'm 
already seeing today.
    And I think that's--I'm here as a doctor representing my 
patients, and so I need to advocate for every one of my 
patients. I'm doing everything I can within the emergency 
department, but we have to act upstream in order to attack the 
root cause of these problems, because these patients are going 
back out and continually getting harmed. That's why we need 
your help.
    Ms. Pressley. Thank you.
    I think the time for small steps and half-measures is long 
time-over, it's expired. It is time for a Green New Deal. It's 
time to prioritize the preservation of our planet and to 
mitigate the worst impacts of climate change in our 
communities.
    Thank you, and I yield.
    Ms. Kelly. Thank you.
    Dr. Thakur. Chairperson Kelly, may I respond to Chairperson 
Green? He had called out the role of the clinicians on this 
committee--on this panel today, and I just want to get a chance 
to respond to what he brought up, specifically around air 
pollution and respiratory diseases.
    Ms. Kelly. You may respond.
    Dr. Thakur. Thank you.
    As Chairwoman Pressley highlighted, the disproportionate 
burden of air pollution and climate change effects have been in 
communities of color and in low-income communities. I want to 
also highlight, when we think about these communities, it's 
also where we see asthma prevalence to be the highest.
    And you are absolutely correct that air quality has 
improved over the years, but it has not improved that much in 
those communities. In fact, earlier in this hearing, I brought 
up that, despite tightened regulations, nitrogen dioxide 
levels, which is a traffic-related air pollutant that I, 
myself, in my own work, have shown to be associated with 
asthma, is still 37 percent higher in non-White communities.
    So, it's, therefore, not surprising that communities that 
are still seeing a rise in asthma occurring also carry the 
greatest air pollution burden.
    Ms. Kelly. Thank you so much.
    Now I'm going to call on Congressman Keller from 
Pennsylvania.
    Mr. Keller. Thank you, Madam Chair.
    On any given day, Pennsylvania's 12th congressional 
District provides roughly 10 percent of our Nation's natural 
gas supply, lowering America's energy bills and powering the 
Nation. Carbon emissions have been declining in this country 
for nearly 15 years, due in part to the cost-effective natural 
gas coming out of places like north-central Pennsylvania.
    Thanks to President Trump's efforts, we are now energy-
independent and are relying less on foreign governments to help 
us produce energy. As EPA Administrator Wheeler puts it, 
Americans are breathing the cleanest air since 1970. And 
criteria air pollutant emissions under President Trump dropped 
seven percent since 2017.
    The Trump administration has shown that improvements in 
public health and economic growth can take place at the same 
time. So, that leads me to some questions for Mr. 
Shellenberger.
    What is the return on investment for solar and wind energy 
compared to natural gas?
    Mr. Shellenberger. Thank you for the question, Congressman.
    I am sorry, I don't have the exact numbers for the return 
on investment. What I do know is that there are--that every 
state that has implemented serious renewable-energy mandates 
has seen their electricity costs go up. In fact, it was Michael 
Greenstone who did the study showing that renewable mandates 
increased the cost of electricity by $125 billion and in 
California they went up sixfold more than they did in the rest 
of the United States.
    What should've occurred is that our electricity prices 
should've gone down because of the reason you mentioned, which 
is the natural gas revolution that we've experienced. In fact, 
electricity prices would've risen even higher in California and 
in those other states had it not been for the significant 
declines in the cost of natural gas.
    Mr. Keller. And the energy rates would've increased for 
low-income Americans. Therefore, they would not be making those 
climate control efforts of air conditioning, so on, more out of 
reach for low-income Americans.
    Mr. Shellenberger. Absolutely correct. Making energy more 
expensive is the most regressive thing you can do, because 
energy is used in every part of the economy. So, it's food, 
it's transportation, it's consumer products. So, I mean, it's 
ironic to me that so many people that are committed to 
progressive taxation embrace the most regressive thing you can 
do for poor people and people of color, which is to make energy 
more expensive.
    Mr. Keller. Thank you.
    Also, can you explain why the U.S. carbon emissions have 
been declining for over a decade?
    Mr. Shellenberger. Yes. As I mentioned earlier, clearly, 
the major factor for it is the natural gas revolution.
    Again, I think the most telling statistic is that, under 
President Obama's proposed Clean Power Plan, carbon emissions 
would've been reduced 32 percent by 2030 from the power sector; 
instead, they declined 34 percent by 2019. That's remarkable.
    It's proof that, while pollution regulations might have a 
role to play, they were not the main factor in resulting 
declining carbon emissions and those important declines in 
energy costs as a result of the gas revolution.
    Mr. Keller. Yes. So, thank you. I really, really appreciate 
that. Because it is about making sure that we do have a clean 
environment, but it should include all of the above, and we 
shouldn't be discounting natural gas or other energy sources 
that really make energy affordable for all of us but most 
importantly low-income individuals.
    So, it's clear to me that we need to be making smart 
investments in American energy, continuing the exceptional work 
of this administration, and looking at what they've done to 
lower carbon emissions and continuing to pursue economic 
growth.
    With that, I thank you, and I yield back.
    Mr. Shellenberger. Congressman, may I make one more point?
    Mr. Keller. Yes.
    Mr. Shellenberger. We've heard a lot about how essential 
air conditioning is. And I share the concerns, by the way, 
about continuing racial disparities in terms of the penetration 
of air conditioning. Air conditioning is literally a lifesaver, 
particularly for elderly and people with preexisting 
conditions, who tend to be most negatively affected by heat 
waves.
    One of the most important things that determines how 
frequently you can operate your air conditioner is the cost of 
energy. It's the cost of electricity.
    So, if you want to see poor people and people of color have 
greater resilience to heat waves and fewer deaths from heat 
waves, then you should want cheaper electricity, since often 
what we find in these studies is that air conditioning is not 
used enough during hot periods because people are worried about 
the high cost of powering them.
    Mr. Keller. That would also help our senior citizens who 
are on fixed incomes.
    So, thank you.
    Mr. Shellenberger. Thank you, sir.
    Mr. Keller. I yield back.
    Mr. Greenstone. Madam Chairwoman, this is Michael 
Greenstone. I wondered if I could respond since my research was 
brought up.
    Ms. Kelly. We'll let you take a few minutes to respond.
    Mr. Greenstone. Sure.
    I just--Mr. Shellenberger correctly noted that I have done 
some research that indicates that renewable portfolio standards 
increase the cost of electricity. And I just want to step back 
from it. I agree with my own paper, so I don't dispute what he 
said. But it's a very strange--there's kind of a strange thread 
to the way he's making his argument here, which is that we 
should only look at the cost of renewable portfolio standards 
or other carbon policies, and there's a failure to compare the 
cost to the benefits.
    And what my testimony today was about was that there are 
substantial and indeed much larger benefits from reducing 
carbon than we had previously understood. So, the kind of 
decisionmaking that we would hope government would make would 
be to compare the costs and the benefits of different actions 
and not only look at one side of the equation.
    And I will just add that, you know, a completely level 
playing field which accounted for all the costs of different 
energy sources imposed on society, I would strongly advocate 
for that. And I think that there are plenty of opportunities to 
introduce policies like that that would indeed have benefits 
that greatly exceed the costs.
    Thank you.
    Ms. Kelly. Thank you.
    Mr. Shellenberger. May I briefly respond, Chairwoman?
    Ms. Kelly. I'll give you the last word. Yes.
    Mr. Shellenberger. Very briefly.
    I agree we should count costs and benefits. So, if my 
remarks were interpreted as suggesting we shouldn't, then let 
me clarify by saying of course we should.
    But I also don't think that it necessarily means--I think, 
as what we saw with the big reductions in carbon emissions from 
natural gas, that it doesn't necessarily come at a higher 
economic cost.
    In fact, the whole, long tradition of energy transitions--
and there's been studies, there's been dozens or hundreds 
around the world. Energy transitions occur primarily when the 
new source of energy becomes cheaper than the incumbent. In 
other words, per unit of energy, the cost of energy has been 
going down as we become--as sources of energy become cleaner.
    In terms of a level playing field, I just think we should 
be aware that what that would mean is that solar and wind 
producers would need to pay for the cost of the disposal of 
their waste products, including the decommissioning of their 
plants, which they are currently not paying.
    And I would also suggest--and you may agree, Michael--is 
that they should also pay for the high cost of their 
integration into grids. The cost of integrating intermittent 
solar and wind onto the grid is significantly higher, given 
their unreliability, than it is for a natural gas or a nuclear 
power plant.
    Ms. Kelly. Thank you.
    Dr. Salas, any last comment?
    Dr. Salas, do you have any last comments?
    Dr. Salas, can you hear me? Do you have any last comments?
    Dr. Salas. Sorry. I was having trouble with my audio.
    I just--the one thing that I will add is just the fact that 
there's been discussion about the fact that there are benefits 
and that there have been improvements that have been made in 
regard to air pollution. I think the one thing I would stress 
is that I often think in terms of air and health analogies. I 
think about it as someone who has cancer. So, let's say that 
they get a treatment and their cancer has improved just a 
little bit, but yet there's another treatment that actually 
will get rid of the cancer completely.
    So, yes, we can, you know, applaud the fact that there has 
been some improvement, but we actually have another treatment 
that can actually get to the root cause and actually eliminate 
the exposure completely. So, in my mind, as a doctor, for me to 
not implement or offer that other treatment would be 
malpractice.
    I think we just really need to think about the fact that we 
can actually get to the root cause and be able to not just 
celebrate small gains but actually eliminate the disease 
completely.
    Ms. Kelly. Thank you.
    Dr. Shindell?
    Mr. Shindell. Yes. Thank you.
    Well, I would like to address a few of these economic 
issues that keep coming up here. In particular, I'd like to 
point out that, in places in the United States with competitive 
energy markets, the market is, again, leading the way with 
transitions to renewables, because they are simply cost-
effective. And solar, including battery storage, is winning 
competitive bids throughout those parts of the country, mostly 
in the West, where bids are open to the lowest bidder.
    So, I think we are seeing that market forces can move us in 
the right direction. The problem is, they don't move us quickly 
enough to meet the kind of targets that we have committed to 
and all of the world is committed to, which are keeping 
temperatures below 2 degrees, with the idea that that is 
necessary to protect public health.
    What I have found in my research and I just want to 
reiterate is what I would consider really positive news, that, 
by dealing with the climate crisis, by transitioning away from 
fossil fuels, we automatically get, at the same time, enormous 
public health benefits right here at home from our own actions.
    And those are predominantly driven by improvements in air 
quality. Cleaning up the air affects those people--affects 
everybody in the United States, but it is especially pronounced 
in those with preexisting conditions, the poor, people of 
color, those who are subject to the worst consequences of air 
pollution already.
    At the same time, it affects all businesses. Because, while 
fossil fuel use brings a lot of profit to a small section of 
the economy, it causes an enormous harm that every other aspect 
of the American economy picks up. So, we all pay higher 
insurance premiums, we all have lower worker productivity, we 
all pay higher damage insurance premiums because of the 
consequences of climate change.
    So, dealing with this is a real way for the United States 
to have both a clean environment and a healthy economy. Nobody 
is talking about limiting economic growth or people sitting in 
the dark. What we're aiming for here is taking advantage of 
existing technologies that are cheaper, cleaner, and better. 
And these can really lead us to a place that I think we should 
actually feel very happy, that everything we do to deal with 
climate change is not simply a wrenching, difficult transition 
but has the possibility to make lives better on the ground, 
especially for public health, as we've been talking about 
today, but also for many other aspects of our environment--
recreation, et cetera.
    Thank you again for hosting this important hearing, and 
it's been a privilege to take part.
    Ms. Kelly. Thank you.
    And last but certainly not least, Dr. Thakur.
    Dr. Thakur. Thank you.
    I came here today as a practicing pulmonologist to be able 
to tell my patients' stories and how they're impacted by 
climate change. You know, we've reviewed many of the studies, 
and there are hundreds more, that have demonstrated how 
greenhouse gas emissions have already changed our climate over 
the past several decades, you know, caused the heat waves to 
happen more often and last longer, lead to dangerous spikes in 
ground-level ozone, increased wildfire activity in many parts 
of the United States, including near my home in California, and 
longer and more potent pollen seasons.
    So, these effects hurt American families, and my healthcare 
colleagues and I are already seeing these effects among our 
patients. In my testimony today, I shared my patients' stories 
to illustrate how climate change is impacting us now and 
affects my everyday practice caring for patients, especially 
those who are most vulnerable--the elderly, those with chronic 
medical conditions, and those from historically disadvantaged 
communities.
    So, one common theme I hope that I've left you with today 
is that climate change is impacting my patients' health now, 
and, as a physician, it is my job to help improve the health of 
my patients.
    And while it was raised that there are some solutions in 
place, such as air-conditioned cooling centers, malls, and 
things like that to address heat waves, this isn't enough. 
These are Band-Aids. We have an ongoing climate change problem, 
and the heat--and the Earth is just getting hotter. These 
things will only last for so long, and we need to do better to 
address the root sources and aim for cleaner air.
    I think when we as a country address climate change, we 
redeem immediate health benefits right here in the United 
States, as outlined by Dr. Shindell and Dr. Greenstone. As a 
mom, a doctor, and a representative of the American Thoracic 
Society, I favor us taking firm steps to address climate change 
because I support clean air and a healthy future for all 
Americans.
    Thank you again for having this important session today.
    Ms. Kelly. Thank you.
    I would like to take a moment to recognize a critical 
perspective on climate change--our Nation's youth. Seventeen-
year-old Gretchen Upton of Shreveport, Louisiana, a member of 
the youth-led Sunrise Movement wrote to the committee. I wanted 
to quickly read a portion of that letter.
    She wrote, and I quote, ``The strength I found in Sunrise 
was strength to fight for a just future, a livable future, with 
good, clean jobs and safe homes; strength to remember that we 
are the majority who just want to live in a world where it's 
safe to open up our windows and let the breeze in.''
    Without objection, Gretchen's statement shall be made a 
part of the record.
    Ms. Kelly. And, also, in closing, I want to thank our 
panelists for their----
    Mr. Comer. Madam Chair?
    Ms. Kelly. Yes?
    Mr. Comer. Yes. You allowed the majority witnesses to give 
a closing statement. I was wondering if you would allow the 
minority witness, Mr. Shellenberger, to give a closing 
statement.
    Ms. Kelly. I allowed him to give a closing statement also.
    Mr. Comer. Thank you.
    Ms. Kelly. Uh-huh.
    Mr. Comer. Oh, you're going----
    Ms. Kelly. No, he already did it.
    Mr. Comer. OK.
    Ms. Kelly. All right.
    In closing, I want to thank our panelists for their 
remarks, and I want to commend my colleagues for participating 
in this important conversation.
    With that, without objection----
    Mr. Palmer. Madam Chair? Madam Chair?
    Ms. Kelly. Yes?
    Mr. Palmer. May I be recognized?
    Ms. Kelly. Yes.
    Mr. Palmer. Thank you.
    Ms. Kelly. Mr. Palmer.
    Mr. Palmer. Thank you, Madam Chair.
    I would like to submit some documents for the record, if I 
may.
    I have a paper from the National Bureau of Economic 
Research that verifies what we were talking about earlier about 
inexpensive heating reduces winter mortality. It saves lives.
    And I'd like to introduce into the record from the state of 
the Planet a report, ``Can Removing Carbon from the Atmosphere 
Save Us from Climate Catastrophe?'' And it outlines a lot of 
the new technology that is out there that validates what Dr. 
Shellenberger's been talking about, that we shouldn't be 
perpetuating fear. We ought to be talking about the prospects 
that we have for improving our climate, for reducing the impact 
of climate change through the use of technology and the use of 
nuclear power.
    So, if I may, I would like to submit those two for the 
record.
    Ms. Kelly. Did you email these documents to the clerk in 
advance?
    Mr. Palmer. No, ma'am, I wasn't aware that that was a 
prerequisite. In previous times, the rules allowed a member to 
bring the documents to the hearing, but, obviously, we're not 
together. But I think you know me well enough to know that 
these are not bogus; they're substantive.
    Ms. Kelly. There was notice, but, without objection, it 
shall be submitted to the record.
    Mr. Palmer. I will obey the rules in the future. Thank you, 
Madam Chairman.
    Ms. Kelly. You're welcome.
    So, with that----
    Mr. Comer. Madam Chair? One last thing, Madam Chair.
    Ms. Kelly. Yes, sir.
    Mr. Comer. Dr. Shellenberger was responding to a question. 
I don't believe he was given an opportunity for a last 
statement. So, once again, on behalf of the minority, I would 
request that our witness, Dr. Shellenberger, has an opportunity 
for a brief closing statement.
    Ms. Kelly. Dr. Shellenberger, because I'm a nice person and 
I believe in being fair, I will give you your opportunity.
    Mr. Comer. Thank you, Madam Chair.
    Mr. Shellenberger. Thanks, Madam Chairwoman. I really 
appreciate it. I'll be very brief. A much more positive 
experience this week than last week, so thank you very much. 
It's much better to be able to have this conversation than to 
have this conversation shut down.
    I'll just say it feels like there's been a shift in some of 
our perspective here. I've seen more acknowledgment of the very 
significant improvement that we've made in the natural 
environment and the very large reductions in air pollution that 
have occurred, some of which are over 90 percent, including for 
communities of color, while recognizing there are still racial 
disparities we need to address.
    I would just also suggest that, while I may disagree with 
some of the other experts today on many of these issues, I know 
that we all care about the same things, and I think it's 
important to remind ourselves that we share similar values.
    One of the things, obviously, we disagree about is whether 
renewables are really an important climate solution. I think 
it's fine to disagree about that, but it seems to me that one 
question for this committee is, if you think that renewables 
are already cost-effective or cheaper than the grid, then why 
would we need to spend $2 trillion subsidizing them? I think 
that's an important question that needs to be fully addressed.
    But, once again, I very appreciate your graciousness and 
the allowance of this conversation today, Chairwoman. Thank 
you.
    Ms. Kelly. Thank you.
    So, I want to give Mr. Greenstone--if he felt that he 
didn't make a closing statement, I want to give you that 
opportunity.
    Mr. Greenstone. I'll just summarize what I think is the 
point of my testimony and what I see as the larger, broader 
issue here. And I think we're taking a very--there's a risk 
that we're taking a very simple issue here and making it much 
more complicated than is necessary. So, let's just start with 
the facts.
    Climate change is going to impose very substantial costs on 
our well-being. The new research that I did with my colleagues 
says that the mortality risk from temperature change--the costs 
of that are at least an order of magnitude larger than was 
previously understood. I think that's cause for a revision of 
our understanding of the damage of climate change. That's one.
    Two, switching from a high-emissions scenario, which is 
very similar to what we're on now, to a moderate-emissions 
scenario has the potential to be one of the greatest public 
health policies of all time. It would protect the lives of 
people in the United States--I highlighted some of the 
districts it would benefit the most--and people around the 
world.
    I would then--just two final points--the current estimates 
of social cost of carbon, which play a central role through our 
regulatory policy, are substantially smaller than I think the 
evidence suggests. And the work that I released this week with 
my colleagues would imply that just the mortality risks are 
five times larger than the complete costs--estimated costs of 
climate change that the Trump administration have in place.
    And my final point is, I think there are many, many 
policies that are available, all of which would have the flavor 
of causing fossil fuels to be penalized for their contribution 
to climate change and would level the energy playing field in a 
way that I think people would have a hard time disagreeing 
with, that would produce benefits that exceed the costs.
    Thank you very much for the opportunity to participate.
    Ms. Kelly. Thank you.
    And I'm going to try this again.
    In closing, I want to thank our panelists for their 
remarks, and I also want to commend my colleagues for 
participating in this important conversation.
    With that, without objection, all members will have five 
legislative days within which to submit additional written 
questions for the witnesses to the chair, which will be 
forwarded to the witnesses for their response.
    I ask our witnesses to please respond as promptly as you 
are able.
    Ms. Kelly. This hearing is now adjourned.
    [Whereupon, at 2:27 p.m., the committee was adjourned.]

                        [all]
</pre></body></html>
